      September 29, 2006




 Acquisition
 Commercial Contract for
 Noncompetitive Spare Parts With
 Hamilton Sundstrand Corporation
 (D-2006-122)




                            SPECIAL WARNING
This special version of the report has been revised to omit contractor
proprietary data.




                       Department of Defense
                      Office of Inspector General
   Quality                        Integrity                Accountability
  Additional Copies

  To request copies of this report, contact Mr. Henry F. Kleinknecht at (703)
  604-9324 (DSN 664-9324) or Mr. Joseph P. Bucsko at (703) 604-9337 (DSN
  664-9337).

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Corporate Analysis and
  Planning at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and
  requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704


                                   To report fraud, waste, mismanagement, and abuse of authority.
                                   Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                   Phone: 800.424.9098 e-mail: hotline@dodig.mil www.dodig.mil/hotline




Acronyms

ADQ                   Annual Demand Quantity
ALC                   Air Logistics Center
CPARS                 Contractor Performance Assessment Reporting System
DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contract Management Agency
DFARS                 Defense Federal Acquisition Regulation Supplement
DLA                   Defense Logistics Agency
DSCC                  Defense Supply Center, Columbus, Ohio
DSCP                  Defense Supply Center, Philadelphia, Pennsylvania
DSCR                  Defense Supply Center, Richmond, Virginia
FAR                   Federal Acquisition Regulation
FARA                  Federal Acquisition Reform Act of 1996
FASA                  Federal Acquisition Streamlining Act of 1994
GAO                   Government Accountability Office
LANTIRN               Low Altitude Navigation and Targeting Infrared for Night System
NSN                   National Stock Number
OEM                   Original Equipment Manufacturer
OIG                   Office of Inspector General
PBA                   Price-Based Acquisition
TINA                  Truth in Negotiations Act
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
               Department of Defense Office of Inspector General
Report No. D-2006-122                                                 September 29, 2006
   (Project No. D2005-D000CH-0183.000)

       Commercial Contract for Noncompetitive Spare Parts With
                 Hamilton Sundstrand Corporation

                                 Executive Summary

Who Should Read This Report and Why? DoD acquisition and contracting personnel
should read this report because it concerns the rapidly increasing cost of noncompetitive
spare parts for Defense weapon systems.

Background. Hamilton Sundstrand is a subsidiary of United Technologies Corporation.
Hamilton Sundstrand designs and manufactures aerospace systems for commercial,
regional, corporate, and military aircraft, and is a major supplier for international space
programs. Hamilton Sundstrand’s aerospace business units provide technologically
advanced systems, components, and services for the commercial and military aerospace
and related industries.

Over the past 9 years, the DoD Office of Inspector General has worked closely with the
Defense Logistics Agency (DLA) and other DoD Components to achieve fair pricing for
noncompetitive items. We have issued a series of reports involving the pricing of both
commercial and noncommercial spare parts. Two previous reports have discussed the
reasonableness of prices paid for spare parts procured from Sundstrand (now Hamilton
Sundstrand Corporation) and the company’s exclusive distributor, AAR Defense
Systems. See Appendix B for a list of prior reports.

In 2004, the Commanders of the Air Force Materiel Command and the Army Materiel
Command and the Director, DLA chartered a strategic supplier alliance with Hamilton
Sundstrand Corporation. Ogden Air Logistics Center served as the Air Force lead with
overall responsibility for the contract and the Defense Supply Center Richmond served as
the DLA lead providing pricing support (Air Force negotiating team). The agreement
resulted in a 9-year $860 million strategic sourcing commercial contract for
noncompetitive spare parts used on Defense weapon systems. Phase 1 of the contract
includes items such as generators and gear boxes and component parts used mostly on the
F-16 aircraft. DoD funded approximately $3.1 billion for research, development, test,
and evaluation for the F-16 aircraft.

Results. The Air Force negotiating team used questionable commercial item
determinations that exempted Hamilton Sundstrand from the requirement to submit cost
or pricing data (Truth in Negotiations Act [section 2306a, title 10, United States Code])
on an $860 million commercial contract for noncompetitive spare parts used on Defense
weapon systems. The Air Force also did not establish an effective means to determine
price reasonableness of the exempt “commercial” items. As a result, the Air Force
negotiating team classified basically all Hamilton Sundstrand noncompetitive spare parts
as exempt commercial items and relied primarily on price analysis of previous
Government prices that had been determined not to be fair and reasonable by DLA and
on previous audits. This strategy places the Government at high risk of paying excessive
prices and profits and precludes good fiduciary responsibility for DoD funds (finding A).

We recommend that the Under Secretary of Defense for Acquisition, Technology, and
Logistics develop and issue guidance in the Acquisition Regulations to clarify exceptions
to cost or pricing data for noncompetitive commercial items and clarify pricing of
noncompetitive commercial items as required by the Strom Thurmond National Defense
Authorization Act of Fiscal Year 1999. We also recommend that the Under Secretary
address whether unreasonable and uncooperative contractors should receive
unsatisfactory out-of-cycle ratings in the Contractor Performance Assessment Reporting
System.

The Air Force negotiating team used a high-risk pricing strategy that relied primarily on
the price analysis of questionable Government prices to price noncompetitive spare parts
on the strategic sourcing commercial contract with Hamilton Sundstrand. As a result, we
calculated that negotiated price-based prices were about 28.4 percent higher than
previous contract prices (adjusted for inflation) for 93 items with an annual demand of
more than $7.5 million. We also calculated that price-based contract prices for two items
with an annual value of $1.4 million were $ 1          ( 1 percent) higher than cost-based
prices (finding B).

We recommend that the Assistant Secretary of the Air Force (Acquisition) initiate action
to develop alternate sources for noncompetitive Hamilton Sundstrand items. We also
recommend that the Assistant Secretary report the basis of commercial items
determinations and steps taken to ensure price reasonableness for all commercial
contracts with an estimated value of $15 million or more annually to the Secretary of
Defense as required by the National Defense Authorization Act of Fiscal Year 2003. We
also recommend that the Assistant Secretary provide assistance to the contracting officer
in obtaining necessary data to determine price reasonableness. We recommend that the
Commander, Ogden Air Logistics Center, Hill Air Force Base, Utah, terminate the
pricing strategy and address the pricing issues identified in the report with the
commercial strategic sourcing contract with Hamilton Sundstrand.

Management Comments and Audit Response. We received comments from the
Director, Defense Procurement and Acquisition Policy, Under Secretary of Defense for
Acquisition, Technology, and Logistics; and the Military Deputy, Office of the Assistant
Secretary of the Air Force (Acquisition). The Director, Defense Procurement and
Acquisition Policy concurred with the report findings and recommendations. The
Director will meet with Senior Procurement Executives; deliberate a Federal Acquisition
Regulation case; revise procedures and guidance; re-energize the cost analysis and
pricing function; and revise the contract pricing reference guide to satisfy the
recommendations.

The Military Deputy, Office of the Assistant Secretary of the Air Force, concurred or
partially concurred with the report findings and recommendations. On September 28,
2006, the Deputy Assistant Secretary (Contracting), Assistant Secretary (Acquisition)
provided technical corrections to the initial Air Force response that resolved some issues.
However, management comments overall did not meet the intent of the recommendations
regarding the commercial pricing strategy for items on the current and future phases of

1
    Contractor proprietary data omitted.



                                             ii
the contract. Therefore, we request that the Assistant Secretary of the Air Force
(Acquisition) provide comments to the final report on Recommendations B.1.c, B.2,
B.2.a, B.2.b, B.2.e, B.2.f, and B.2.h. through B.2.k. by October 30, 2006.

We have fundamental differences with the Air Force on the commercial pricing strategy
used to procure noncompetitive items for Defense weapon systems. These differences
are similar to those identified in DoD Inspector General Report No. D-2004-064,
“Acquisition of the Boeing KC-767A Aerial Refueling Tanker,” March 29, 2004.
Specifically, we do not believe it is appropriate to:

       •   grant a commercial item exception to cost or pricing data for noncompetitive
           items if the contractor does not have sufficient commercial sales to support price
           reasonableness by price analysis of the commercial sales. The appropriate
           contract type should be a Federal Acquisition Regulation Part 15 contract. The
           fact that a contractor refuses to negotiate a Federal Acquisition Regulation Part 15
           contract is not sufficient justification to award a Federal Acquisition Regulation
           Part 12 commercial contract.

       •   use price analysis of previous Government buys to determine price
           reasonableness for noncompetitive items unless the reasonableness of the
           previous buy can be established (for example, a previous buy was determined
           reasonable based on cost analysis). Our previous audit reports of Hamilton
           Sundstrand have shown that using price analysis of previous noncompetitive
           prices results in prices that are 2 to 2 percent higher than fair and reasonable
           as determined by cost analysis.

       •   enter into or proceed with a strategic supplier initiative with a contractor that
           refuses to provide DoD contracting officers cost information when requested.
           Hamilton Sundstrand has taken the position that it will not provide DoD and Air
           Force officials with cost information when requested. The contractor needs to
           provide the cost information for the 24 Phase 1 items requested by the Air Force
           and the data need to be reviewed by appropriate DoD audit agencies. Until this is
           done, the Phases 2 and 3 of the strategic supplier initiative should not proceed. If
           Hamilton Sundstrand continues to refuse to provide the cost information, the Air
           Force needs to take aggressive action to develop new sources for high demand
           items and consider giving the contractor an unsatisfactory performance rating.

See the Finding section of the report for a discussion of management comments on the
recommendations and our audit response. See the Management Comments section of the
report for the complete text of comments.




2
    Contractor proprietary data omitted.



                                                iii
Table of Contents

Executive Summary                                                                i

Background                                                                       1

Objectives                                                                       4


Findings
     A. Commercial Item Exception to Cost or Pricing Data                        5
     B. “Commercial” Pricing Strategy for Noncompetitive Spare Parts            29

Appendixes
     A.    Scope and Methodology                                                67
     B.    Prior Coverage                                                       71
     C.    Pricing Issues for Generators and Generator Components               73
     D.    Report Distribution                                                  81

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics      83
     Assistant Secretary of the Air Force (Acquisition)                         89
     Assistant Secretary of the Air Force (Acquisition) Technical Corrections   96
Background
    Acquisition Reform Legislation. Congress commissioned an Advisory Panel on
    Streamlining and Codifying Acquisition Laws pursuant to Section 800 of the
    National Defense Authorization Act of Fiscal Year 1991. In January 1992, the
    panel completed its report and recommended a comprehensive overhaul of
    Federal procurement laws to:
           Improve Government access to commercial technologies;

           Reduce administrative overhead, especially in light of anticipated
           reductions in the federal acquisition workforce, and

           Reverse a perceived trend toward the incremental enactment of
           procurement statutes without clear analysis of their impact on the
           overall acquisition system [Senate Report 103-258, May 11, 1994].

    On October 13, 1994, Congress enacted Public Law 103-355, the “Federal
    Acquisition Streamlining Act of 1994,” (FASA). FASA amended section 2306a,
    title 10, United States Code (10 U.S.C. 2306a), “Cost or pricing data: truth in
    negotiations,” to establish an exception from the submission of cost or pricing
    data for established catalog or market prices of commercial items that are sold in
    “substantial quantities to the general public.” FASA specifically addressed
    noncompetitive commercial items and required information on prices at which the
    same or similar items “have been sold in the commercial market that is adequate
    for evaluating, through price analysis, the reasonableness of price,” before a
    contracting officer could grant an exception to cost or pricing data.
           The new exception shall be used where competition is not practicable
           and the contracting officer obtains appropriate data on prices charged
           for the same or similar products in the commercial marketplace under
           standards and procedures set forth in the Federal Acquisition
           Regulation that the contracting officer determines is adequate to
           determine price reasonableness [Senate Report 103-258,
           May 11, 1994].

    The overall thinking behind FASA was that:
           This approach would relieve commercial contractors from what they
           consider their number one disincentive to participating in government
           procurement – the burden of collecting cost data for the government.

           By easing many of these requirements, the bill may encourage more
           firms to bid on government contracts, which might lower prices
           through increased competition. Reducing the information burden also
           may lower bids from all firms if bidders can dispense with separate
           accounting systems for federal and commercial contracts [Senate
           Report 103-258, May 11, 1994].




                                             1
On February 10, 1996, Congress enacted Public Law 104-106, the “National
Defense Authorization Act for Fiscal Year 1996.” Division D of the Act was
titled the “Federal Acquisition Reform Act of 1996,” (FARA). FARA further
amended 10 U.S.C. 2306a by removing the requirement for commercial items to
be sold in substantial quantities to the general public and eliminating specific
guidance for noncompetitive commercial items.

RAND Corporation Research on “Price-Based Acquisition.” In 2005, RAND
Corporation reported its research findings (sponsored by the Air Force) on the use
and potential benefits of priced-based acquisition (PBA) for DoD procurement of
major military-unique systems. Specifically, the report described PBA as such:
       Its core concept is the procurement of goods and services through a
       commercial-like market pricing approach rather than the traditional
       heavily regulated, cost-based DoD approach using certified cost or
       pricing data.

The RAND research addressed many of the anecdotal benefits of commercial
price-based acquisition found in FASA and FARA. The RAND findings on
several of the key research questions were:

       Is there documented evidence that prices paid for DoD systems,
       goods, and services have been reduced through the use of PBA
       compared with CBA [cost-based acquisition] processes? The
       answer to the first question is basically no.

       Is there documented or anecdotal evidence that PBA has reduced
       contractor overhead rates/charges? The answer here is also no, for
       many reasons.

       Is there evidence that additional competitors (at the prime,
       subcontractor, or supplier levels), particularly companies that do
       not normally do business with DoD, have participated in DoD
       procurements as a result of PBA? The answer here is that we found
       little evidence that PBA had any significant impact on bringing in new
       suppliers and/or technologies to DoD weapon system programs.

Commercial Pricing Issues. During the last 9 years, the DoD Office of
Inspector General (OIG) has worked closely with the Defense Logistics Agency
(DLA) and other DoD Components to achieve fair and reasonable pricing for
noncompetitive items. We have issued a series of reports involving the pricing of
both commercial and noncommercial noncompetitive spare parts (see Appendix B
for a list of prior audit reports).

Both the OIG and the Government Accountability Office (GAO) continue to
identify risks in implementing commercial practices for contract pricing. In its
January 2001 report, “Performance and Accountability Series: Major
Management Challenges and Program Risks, Department of Defense,” GAO
identified implementing commercial practices for contract pricing as a “high-risk
area” under contract management and stated:




                                         2
                    Adjusting to Commercial Contract Pricing Practices

                    In recent years, DoD has significantly changed the way it acquires
                    goods and services by removing what were considered barriers to
                    efficient and effective use of the commercial marketplace. A major
                    focus of these changes is the adoption of commercial buying practices.
                    For example, for an increasing number of contracts for sole-source
                    spare parts, DoD is transitioning from a cost-based pricing
                    environment, in which contractor costs are the basis to negotiate prices,
                    to a market-based or commercial pricing environment in which factors
                    other than cost, such as pricing data, are the principal means used to
                    determine the reasonableness of prices. While the level of commercial
                    contracting remains relatively small compared to total DoD
                    procurement, it is likely to increase substantially in the coming years.

                    Both we and the DoD Inspector General have found and recommended
                    that DoD needs to strengthen its efforts to obtain fair and reasonable
                    prices. For example, the Inspector General found that DoD needs to
                    use more cost-effective buying strategies for commercial spare parts.
                    The Inspector General noted that DoD was paying higher prices for
                    some commercial spare parts than necessary. Our work also identified
                    cases in which limited price analyses of commercially offered prices
                    resulted in significantly higher prices than previously paid. DoD is
                    taking steps to improve its workforce training in commercial buying
                    and pricing. How well DoD’s acquisition workforce will adjust to an
                    environment with increased use of commercial pricing practices
                    remains to be seen.

           Previous Hamilton Sundstrand Audits. DoD Inspector General Report
           No. 98-064, “Commercial and Noncommercial Sole-Source Items Procured on
           Contract N000383-93-G-M111,” February 6, 1998, showed that DLA paid about
                 1
           $           ( 1 percent) more than fair and reasonable prices for $6.1 million
           of “commercial items” purchased from Sundstrand during calendar years 1994
           through 1996. The audit showed that higher prices were paid for commercial
           items because:

                    •   as a sole-source supplier with technical data rights, Sundstrand set
                        “market-based” catalog prices for commercial items at “what the
                        market would bear,” and there was no competitive commercial market
                        to ensure the reasonableness of prices;

                    •   Sundstrand refused to negotiate catalog prices for commercial items
                        based on price analysis of previous cost-based prices, refused to
                        provide DLA contracting officers with “uncertified” cost or pricing
                        data for commercial catalog items, and terminated Government access
                        to the Sundstrand cost history system; and

                    •   guidance on commercial items qualified any item “offered for sale,
                        lease, or license to the general public” as a commercial item without

1
    Contractor proprietary data omitted.



                                                       3
                        clearly addressing commercial pricing concerns, particularly when
                        DoD was the primary customer procuring significantly larger
                        quantities than other commercial customers.

           In June 1999, United Technologies Corporation acquired Sundstrand and merged
           it with its Hamilton Standard division forming Hamilton Sundstrand Corporation.

           DoD Inspector General Report No. D-2004-012, “Sole-Source Spare Parts
           Procured From an Exclusive Distributor,” October 16, 2003, showed that DLA
                                      2
           paid prices that were $            ( 2 percent) higher than fair and reasonable
           prices on 35 orders (29 contracts) for 11 sole-source Hamilton Sundstrand spare
           parts procured from AAR Defense Systems from March 1999 through August
           2002. The prices paid to AAR Defense Systems, an exclusive distributor for
           Hamilton Sundstrand, were too high because contracting officers:

                    •   were directed by the original equipment manufacturer (OEM),
                        Hamilton Sundstrand, to procure spare parts through its exclusive
                        distributor even though the distributor provided limited value to DoD;

                    •   relied on inaccurate and misleading information other than cost or
                        pricing data originating from Hamilton Sundstrand and failed to
                        perform cost analysis of OEM prices to determine price
                        reasonableness; and

                    •   failed to sufficiently document and escalate negotiations in cases
                        where the behavior of the OEM was either unreasonable or
                        uncooperative.


Objectives
           Our overall audit objectives were to review the basis for DLA transferring
           contracting responsibility for Hamilton Sundstrand consumable items on the
           strategic sourcing contract to the Air Force, evaluate the adequacy of commercial
           item determinations, assess the basis for determining fair and reasonable prices,
           and determine the impact that a commercial procurement strategy has on the
           prices of sole-source spare parts. See Appendix A for a discussion of the scope
           and methodology. See Appendix B for prior coverage related to the objectives.




2
    Contractor proprietary data omitted.



                                                  4
           A. Commercial Item Exception to Cost or
              Pricing Data
           The Air Force negotiating team used questionable commercial item
           determinations that exempted Hamilton Sundstrand from the requirement
           to submit cost or pricing data (Truth in Negotiations Act [10 U.S.C
           2306a]) on an $860 million commercial contract for noncompetitive spare
           parts used on Defense weapon systems. The Air Force also did not
           establish an effective means to determine price reasonableness of the
           exempt “commercial” items. This occurred because:
               •   guidance on commercial item determinations and commercial item
                   exceptions to cost or pricing data in the United States Code,
                   Federal Acquisition Regulation, and other DoD guidance has
                   become muddled and disordered; and

               •   DoD has not revised and clarified the procedures and methods to
                   be used for determining the reasonableness of prices of exempt
                   commercial items in the Federal Acquisition Regulation as
                   required by the Strom Thurmond National Defense Authorization
                   Act for Fiscal Year 1999.

           As a result, the negotiating team classified basically all Hamilton
           Sundstrand noncompetitive spare parts as exempt commercial items and
           relied primarily on price analysis of previous Government prices that had
           been determined not to be fair and reasonable by DLA and on previous
           audits (see finding B). This strategy places the Government at high risk of
           paying excessive prices and profits and precludes good fiduciary
           responsibility for DoD funds.


Background
    Truth in Negotiations Act. Congress has historically expressed concern with the
    use of other-than-competitive contracts that typically were negotiated between the
    parties. Noncompetitive contracts increase the risk that the Government will pay
    unreasonable prices and that the contractors will earn excessive profits. Based on
    these concerns, Congress passed the Truth in Negotiations Act (TINA) on
    September 10, 1962, that required contractors to submit cost or pricing data
    before the award of a negotiated contract and to certify that the data are accurate,
    complete, and current. The purpose of TINA was to provide the Government
    with all the facts on cost and pricing that the contractor used to prepare the
    proposal so that the Government could negotiate far more knowledgeably and
    avoid paying excessive prices and profits. Throughout the years, amendments
    have modified TINA requirements; the current statutory authority is in
    10 U.S.C. 2306a.

    In response to a contractor report, “The DoD Regulatory Cost Premium: A
    Quantitative Assessment,” prepared for the Secretary of Defense in


                                         5
December 1994, the Director, Defense Procurement commented (June 1995) on
the benefits of TINA, marketplace pricing, and the differences between DoD and
commercial procurement environment.
       The requirements of TINA are necessary to ensure the integrity of DoD
       spending for military goods and services that are not subject to
       marketplace pricing. When there is a market that establishes prices by
       the forces of supply and demand, the market provides the oversight.
       DoD procures many highly complex military systems in the absence of
       supply/demand situations for these relatively low volume, unique
       military goods. The requirements of TINA address legitimate and
       necessary differences between DoD and commercial procurement
       environments.

       While DoD recognizes the need for TINA, it also is moving to increase
       competition and decrease the number of pricing actions that would
       require cost or pricing data. The implementation of FASA, with its
       emphasis on encouraging the acquisition of commercial end items and
       increased competition, will bring the requisite market forces to bear on
       prices, and thus exempt contractors from the requirement to submit
       cost or pricing data. Absent this competition, the quantitative benefit
       to the Government of TINA compliance far exceeds the cost of
       Government oversight. These benefits are best illustrated by the fact
       that during FY 94, oversight work related to TINA resulted in net
       savings of $2 billion on DoD contracts. When compared to the cost of
       $761 million for TINA compliance the benefits represent a 267%
       return on investment.

Commercial Item Definition. The commercial item definition, as amended by
FARA, requires that commercial items need only be offered for sale and need not
be sold competitively or in substantial quantities. The definition also allows
commercial “of a type” or similar items to qualify military-unique items with no
commercial sales as commercial items. Consequently, any noncompetitive item
DoD purchases can arguably be classified as a commercial item. The guidance
does establish a significant difference between determinations for commercial
items and commercial services. The key difference for services is that they must
be sold competitively and in substantial quantities unless the services support an
item that was determined to be commercial. The broadness of the commercial
item definition is addressed in DoD Inspector General Report No. D-2006-116,
“Commercial Contracting for the Acquisition of Defense Systems,” September
29, 2006. Commercial items and services are defined in 41 U.S.C. 403,
“Definitions.”
       (12) The term “commercial item” means any of the following:
         (A) Any item, other than real property, that is of a type customarily
       used by the general public or by nongovernmental entities for purposes
       other than governmental purposes, and that--
             (i) has been sold, leased, or licensed to the general public; or
             (ii) has been offered for sale, lease, or license to the general
       public.
         (B) Any item that evolved from an item described in subparagraph
       (A) through advances in technology or performance and that is not yet



                                          6
       available in the commercial marketplace, but will be available in the
       commercial marketplace in time to satisfy the delivery requirements
       under a Federal Government solicitation.
         (C) Any item that, but for --
             (i) modifications of a type customarily available in the
       commercial marketplace, or
             (ii) minor modifications made to meet Federal Government
       requirements, would satisfy the criteria in subparagraph (A) or (B).
          (D) Any combination of items meeting the requirements of
       subparagraph (A), (B), (C), or (E) that are of a type customarily
       combined and sold in combination to the general public.
         (E) Installation services, maintenance services, repair services,
       training services, and other services if --
             (i) the services are procured for support of an item referred to in
       subparagraph (A), (B), (C), or (D), regardless of whether such services
       are provided by the same source or at the same time as the item; and
             (ii) the source of the services provides similar services
       contemporaneously to the general public under terms and conditions
       similar to those offered to the Federal Government.
         (F) Services offered and sold competitively, in substantial
       quantities, in the commercial marketplace based on established
       catalog or market prices for specific tasks performed and under
       standard commercial terms and conditions. [emphasis added]

“Of a Type” Guidance. On January 5, 2001, as a result of inconsistent
commercial item determinations, weak market research, and confusion
concerning pricing of commercial items, the Under Secretary of Defense for
Acquisition and Technology (now Acquisition, Technology, and Logistics)
[USD(AT&L)] issued guidance clarifying the criteria necessary for contracting
officers to make more consistent commercial item determinations. Specifically,
the guidance established that the intent of the commercial item definition “of a
type” was not to use a commercial acquisition strategy to acquire noncompetitive
military-unique parts that are not similar to items already available in the
commercial marketplace. Instead, the term “of a type” broadens the statutory
commercial item definition to allow Federal Acquisition Regulation (FAR)
Part 12 acquisition of a “government-unique item that can compete with
commercial items that meet the government’s requirement.”
       The phrase “of a type” is not intended to allow the use of FAR
       Part 12 to acquire sole-source, military-unique items that are not
       closely related to items already in the marketplace. Instead, “of a
       type” broadens the commercial item definition so that qualifying items
       do not have to be identical to those in the commercial marketplace.
       The best value offer in a competitive Part 12 solicitation can be an item
       that has previously satisfied the Government’s needs but has not been
       sold, leased, licensed, nor offered for sale, lease or license to the
       general public. In this scenario, the phrase “of a type” allows the best
       value offer to qualify for a Part 12 contract as long as it is sufficiently
       like similar items that meet the government’s requirement and are sold,
       leased, licensed, or offered for sale, lease or license to the general
       public. In such instances, “of a type” broadens the statutory
       commercial item definition to allow Part 12 acquisition of a



                                           7
           government-unique item that can compete with commercial items
           that meet the government’s requirement.       This avoids the
           undesirable result of shutting out otherwise price-competitive
           preexisting suppliers of government-unique items from Part 12
           solicitations. [emphasis added]



Commercial Item Determinations
    Air Force and DLA contracting officers (negotiating team) made questionable and
    conflicting commercial item determinations that basically classified all spare
    parts supplied by Hamilton Sundstrand under the strategic sourcing contract as
    commercial items. Specifically, the commercial item determinations did not
    evaluate whether there was a commercial market to establish reasonable prices by
    the forces of supply and demand and did not meet the “of a type” intent for
    commercial items as previously clarified by the Under Secretary of Defense for
    Acquisition and Technology. In particular, contracting officers did not require
    the submission of data other than certified cost or pricing data to include
    appropriate information on prices at which the same item or similar items had
    previously been sold in the commercial market that is adequate for evaluating the
    reasonableness of price. Although this information is required by the United
    States Code and FAR, the guidance has become muddled and disordered. Instead,
    the contracting team relied on Hamilton Sundstrand’s declaration of commercial
    items and conflicting Air Force and DLA technical reviews to make commercial
    item determinations.

    Hamilton Sundstrand Commercial Item Declaration. On February 24, 2003,
    Hamilton Sundstrand declared that all of its noncompetitive items were
    commercial based on categories of end item equipment groups that share common
    characteristics and manufacturing processes. In a memorandum, Hamilton
    Sundstrand stated:
           All of these items fall into groups of equipment that are “of a type”
           (shares common traits or characteristics that distinguish the end
           items/parts as an identifiable group or class; and has the features of the
           group or class), and “sold” to the “general public.” The items are
           manufactured, assembled, and tested by the same work force, in the
           same facilities, with the same equipment, and under the same quality
           system as our commercial products.

    Air Force Commercial Item Determination. On October 24, 2003, the Air
    Force contracting officer determined all items commercial in the request for
    proposal F42630-03-R-3351 sent to Hamilton Sundstrand because the items were
    “of a type” commonly found in the commercial market, modifications of a type
    customarily available in the commercial market, or minor modifications of a type
    not customarily available in the commercial market.

    On February 22, 2005, the Air Force contracting officer issued a similar
    commercial item determination.



                                               8
       Based on the review of NSNs [National Stock Numbers] set forth in
       the letters submitted by Hamilton Sundstrand Corporation, the DLA
       PCO [Primary Contracting Officer] determinations for the three DLA
       centers (DSCC [Defense Supply Center Columbus], DSCP [Defense
       Supply Center Philadelphia], and DSCR [Defense Supply Center
       Richmond]), and three ALC [Air Logistics Centers] centers (OO-ALC,
       OC-ALC, and WR-ALC [Ogden, Utah; Oklahoma City, Oklahoma;
       and Warner Robins, Georgia]), I hereby determine that the Phase 1
       NSNs identified as commercial on the ELIN [Exhibit Line Item
       Number] Exhibits of contract FA8208-04-D-0002 are commercial
       items in accordance with the definition of “Commercial” items set forth
       in FAR 2.101. A large portion of the items are of a type commonly
       found in the commercial market place in support of commercial
       aviation requirements. Modifications of some of the items are of a type
       customarily available in the commercial market place. Modifications
       of other items are minor modifications of a type not customarily
       available in the commercial marketplace made to meet Federal
       Government requirements. The items are manufactured on an
       integrated production line with little difference between commercial
       and government items.

        Basis for Air Force Commercial Item Determinations. The Air Force
contracting officer used technical engineers at Ogden Air Logistics Center (ALC)
Utah; Oklahoma City ALC, Oklahoma; and Warner Robins ALC, Georgia, to
assist with the commercial item determinations. Most of the Ogden ALC items
were gear boxes, hydraulic motors, fuel controls, and other components used on
the F-16 aircraft, while the Oklahoma City ALC items were generators or
generator components used on F-16, KC-135, B-1B, E-3, A-10, and F-5 aircraft.
DoD funded approximately $3.1 billion for research, development, test, and
evaluation for the F-16 aircraft. See Appendix C for an overview of aircraft
generators. Most of the Warner Robins ALC items were circuit card assemblies
for the F-15 aircraft or temperature control equipment for the Low Altitude
Navigation and Targeting Infrared for Night (LANTIRN) system. Although the
engineers at the three ALCs determined that the items were initially developed for
military application, they reached conflicting conclusions on whether the items
are commercial items.

Based mostly on the engineers’ general knowledge of the basic functions of
military and commercial end item applications, the Section Chief, Systems
Engineering Power Systems Branch, Ogden ALC and the Chief, Engineering
Branch Aerospace Accessories Division, Oklahoma City ALC each stated:
       We find that although the majority of these items were originally
       developed for military applications, these items are of a type
       commonly found in the commercial market place in support of
       commercial aviation requirements. [emphasis added]

The Chief, F-15 Avionics Engineering Branch and Chief, LANTIRN Engineering
Section Combat Systems Development Division, Warner Robins ALC reached a
different conclusion and stated:




                                         9
       We find that these items were developed for military application
       and are not of a type commonly found in the commercial
       marketplace in support of commercial aviation requirements.
       [emphasis added]

In addition, the Ogden and Oklahoma City ALC engineers failed to identify the
“of a type” item commonly found in the commercial market or determine whether
the “of a type” commercial items were sufficiently similar to the military items
and ensure any difference in prices could be identified and justified without
resorting to cost analysis when making their recommendations to the contracting
officer. As a result, the Air Force contracting officer had no basis to evaluate
information on prices at which the same or similar items had been sold in the
commercial market that was adequate for determining price reasonableness
through price analysis.

DLA Commercial Item Determinations. Sundstrand (now Hamilton
Sundstrand Corporation) declined to submit an offer to a December 1997 Defense
Supply Center, Columbus, Ohio (DSCC), noncompetitive solicitation for a
corporate contract until the DSCC contracting officer determined that all of the
Hamilton Sundstrand items were commercial. Hamilton Sundstrand suggested
raising the issue with the Commander, DLA after DSCC challenged the
commerciality claims. In a February 18, 1999, memorandum, the contracting
officer stated that the Commander warned the team about making a “religious
argument” of the commerciality. Further, the memorandum cited that the
Commander stated, “it is not politically popular at this juncture to restrict
commercial determinations.” After technical reviews of a sample of the items,
the DSCC contracting officer stated:
       Given a more liberal rendering, an argument can be made that
       commerciality has not been disproved by the government’s findings
       and do obviously have commercial counterparts albeit sometimes
       remote. Rather than continuing an effort evaluating commerciality that
       leaves us still without a legitimate offer from Sundstrand it is
       determined given the low level of risk to determine the entire
       population commercial. Doing so will allow the contracting officer to
       move forward in soliciting these items under a commercial solicitation
       and to focus their attention on the pricing of this material.

The DSCC contracting officer only submitted the above commercial item
determination for the Hamilton Sundstrand strategic sourcing contract.

On February 25, 2003, and March 3, 2003, the contracting officers at the Defense
Supply Center, Richmond, Virginia (DSCR), and the Defense Supply Center
Philadelphia, Pennsylvania (DSCP), in a memorandum stated:
       Based on the review of NSNs and the letter submitted by Hamilton
       Sundstrand, dated February 24, 2003, the contracting officer hereby
       determines that the NSNs identified as Phase 1, 2, or 3 of the Hamilton
       Sundstrand Contract Exhibits excel file and any future NSNs that are
       determined to be sole source to Hamilton Sundstrand meet the
       definition of commercial item per FAR 2.101(3)(ii), based on the items



                                         10
       being manufactured on an integrated production line, with little
       differentiation between the commercial and government items.

On January 28, 2005, the DSCR contracting officer modified the previous DLA
commercial item determinations to incorporate past dealings with Hamilton
Sundstrand and to include details of a review conducted by an equipment
specialist:
       As stated in previous letter, February 24, 2003, concerning the
       Determination of Commerciality for the sole-source NSNs for
       Hamilton Sundstrand that will be part of Sole Source Initiative (SSI)
       contract the Air Force is working. The Equipment Specialist has
       reviewed specific NSNs and groups of items identified and the
       conclusion is that the majority of the NSNs could be determined
       commercial based on the definition at FAR 2.101(3)(i)(ii),
       “Modification of a type customarily available in the commercial
       marketplace.” And “minor modifications of a type not customarily
       available in the commercial workplace made to meet Federal
       Government requirements.”

       Therefore, based on DLA’s past dealings with Hamilton Sundstrand of
       previous corporate contract D9713 and VPV contract 9432) [sic], the
       contracting officer determines that the NSNs that are part of Phase 1, 2
       or 3, and the attachment 2 and any future NSNs that will be added to
       the Air Force SSI contract are determined to be sole-source to
       Hamilton Sundstrand and meets the definition of a commercial item per
       FAR 2.101(3)(i)(ii).

On February 8, 2005, the DSCR contracting officer again modified the DLA
commercial item determination to include further details of the review conducted
by an equipment specialist. The updated determination found that all DLA parts
including parts managed by DSCR, DSCC, and DSCP were commercial as stated:
       Per our technical review, the conclusion was that “the items in the
       sample group are commercial in nature.” Per letter from Hamilton,
       many of the military products were developed from commercial
       applications and are manufactured without segregation from the
       commercial application items. The processes, materials, methods of
       inspection and testing are the same for both. Therefore, the items may
       be deemed commercial by similarity.           Fourteen NSNs of the
       200 sampled are listed in the Hamilton Sundstrand Commercial Spare
       Parts Catalog for 2004. These are determined exact commercial
       product. This is also based on the definition at FAR 2.101(3)(i)(ii),
       “Modification of a type customarily available in the commercial market
       place.” And “minor modifications of a type not customarily available
       in the commercial marketplace made to meet Federal Government
       requirements.” Therefore based on DLA’s past dealings with Hamilton
       Sundstrand of previous corporate contract D9713, a Columbus contract
       which were deemed commercial on 12/19/2002 and the Virtual Prime
       Vendor contract 9432, 1,134 DLA NSNs, which was deemed
       commercial, the contracting officer determines that the NSNs that are
       part of Phase 1, 2, or 3 are determined to be sole source to Hamilton



                                         11
       Sundstrand and meets the definition of a commercial item per
       FAR 2.101-(3)(i)(ii).

The DLA primary contracting officer determined that all 959 DLA-managed
items awarded in Phase 1 of the strategic sourcing contract and subsequent items
added in Phases 2 and 3 were commercial items based on previous corporate
contracts with Hamilton Sundstrand and technical reviews of 200 items
performed by an equipment specialist and not a qualified engineer due to limited
resources.

The DLA commercial item determination was subsequently updated by the Chief
of OEM Branch 1, Supplier Operations, DSCR. The updated DLA commercial
item determination, which was not dated, limited the group of items determined
commercial to Phase 1 items and provided further explanation of the
commerciality review:
       During the time period January 27 to February 4, 2005, a commercial
       review from the technical perspective was performed by a team
       consisting of a Quality Assurance Specialist and a Quality Assurance
       Team Lead on the Hamilton Sundstrand Integrated Supplier Team.
       The items reviewed were a sample of 200 items identified as meeting
       the commercial definition of FAR 2.101(c)(1).

       The Government selected a sample of 200 of 1,017 items on Phase 1 of
       the SSI contract to review. The 200 items selected were those items
       that are high end items and have high demands for DLA. The
       200 represents 20% of the expected annual value of $3,888,716.23 for
       the overall population. The review was to determine, 1) how alike the
       military item was to a commercial item selected as a representative
       item? 2) Are the items of a type customarily found in the commercial
       market? 3) Do the items share manufacturing processes? 4) Is the
       military item linked to commercial items through engineering
       references and notes on the drawing packages? Hamilton Sundstrand
       provided us with engineering prints for our review. Additionally they
       provided us access to members of their engineering staff to address our
       technical questions as they arose during the reviews.

       The Government review was conducted in accordance with DSCR
       procedure “Interim Guidance for Commercial Determinations” dated
       April 19, 2002.

       Of the 200 NSN’s, 14 can be found in the Hamilton Sundstrand
       Commercial Spare parts Catalog for 2004. These are determined to be
       the “exact” commercial product.

       A majority of the items reviewed, 146 of 200 (73%), demonstrated that
       the military items were like the commercial items in the majority of
       common characteristics. The differences found in these items were
       typically of a type found in the commercial marketplace i.e., size,
       material and slight configuration. Functions were similar in all
       instances. Specific to the Generator applications, the type of
       generators used for a particular military end item where grouped with



                                         12
       their commercial counter parts. The drawings supplied were for a
       selection of generators. They were not complete engineering drawings;
       however, similarity was determined based on their common
       characteristics. The population of 146 NSNs is determined to be
       commercial by “similarity” as defined by FAR 2.101(3)(d), items that
       possess “sufficient common characteristics.”

       Additionally, 39 of the 200 (20%), are gearbox components. These
       were determined commercial based upon previous history for
       commercial determinations, a letter from Lockheed Martin dated
       August 5, 1999, stating “the Engine Start Systems and related electric
       power generation equipment supplied by Hamilton Sundstrand for the
       F-16… are commercial items …”

       Of the items reviewed, 1 out of the 200 was a pump. The information
       supplied on the Fluid Pumping Equipment states the military
       applications were developed from the commercial applications and
       there are no distinctions between the equipment and processes utilized
       in manufacturing. This certification would meet the determination of
       “modified” commercial item as defined by FAR 2.101(3)(c)(1);
       “modification of a type customarily available in the commercial
       marketplace”.

       It is our opinion that the items are clearly within the parameters
       established by the review team and the FAR; therefore should be
       deemed commercial. The sample population of 200 items should be an
       adequate representation of commerciality of the Phase One items.

Another undated version of the DLA commercial item determination prepared by
the Chief of OEM Branch 1, Supplier Operations, DSCR contained the exact
language discussed above except that the last paragraph was replaced with an
explanation that without determining these items commercial, Hamilton
Sundstrand would not offer to provide these items to DLA. Specifically, the last
paragraph stated:
       Rather than continuing an effort evaluating commerciality that leaves
       us still without a legitimate offer from Hamilton Sundstrand it is
       determined given the low level of risk to determine the entire
       population commercial. The items are clearly within the parameters
       established by the review team and should be deemed commercial;
       therefore, the sample population of 200 items should be an adequate
       representation of commerciality.

Similar to the Air Force engineers, the DLA equipment specialist failed to
identify the “of a type” item commonly found in the commercial market or
determine whether the “of a type” commercial items were sufficiently similar to
the military items to ensure any difference in prices could be identified and
justified without resorting to cost analysis. As a result, the DLA contracting
officer also had no basis to evaluate information on prices at which the same or
similar items had been sold in the commercial market that was adequate for
evaluating, through price analysis, the reasonableness of the price. Most of the
DLA items are consumable components used on F-16, F-15, F/A-18, KC-135,


                                        13
           B-1B, and E-3A aircraft. See Appendix C for pictures of components of different
           aircraft generators.

           Commercial Sales Data for Air Force Contract. Hamilton Sundstrand
           provided commercial sales histories of similar items for 10 items with an annual
           price of about $4.6 million, which represents 23.6 percent of the annual price for
           1,011 items ($19.6 million). However, the sales data did not provide DLA and
           the Air Force with sufficient information to establish price reasonableness
           because the sales quantities for the similar parts were significantly lower than
           DoD requirements. For example, a shaft assembly [National Stock Number
           (NSN) 2835-01-208-7789] used on the F-16 aircraft has an annual demand
           requirement of 421. Hamilton Sundstrand only provided commercial sales of one
           similar part that totaled six from 2000 through 2004 or slightly more than one
           annually. Due to the lack of adequate commercial sales, the contracting officer
           relied on price analysis of the previous Government price to negotiate the contract
           price for this item.

           In addition, the sales data provided by Hamilton Sundstrand was an incomplete
           picture of the total market for the items because Hamilton Sundstrand excluded
           OEM and Hamilton Sundstrand joint venture sales of the similar items. Based on
           our review of sales histories of the exact item, we found that OEM sales prices
           were usually lower than both DoD and commercial customer sales prices. For
           example, Hamilton Sundstrand sales data showed that in April 2002 Lockheed
           Martin purchased one starting fuel control for the F-16 aircraft turbine engine
           (NSN 2910-01-135-5681) for a unit price of $ 3          and another of the item for
           $ 3 , while the Air Force purchased two of the item in January 2000 for
                               3          3
           $9,344 each or          to          percent more than the OEM price. In February
           2003, the Air Force purchased 13 additional fuel controls at a unit price of
           $13,614.24 from AAR Defense Systems, Hamilton Sundstrand’s exclusive
           distributor. According to the DSCR cost analyst, Hamilton Sundstrand stated that
           OEM sales prices were not a valid basis to establish prices because the sales
           sometimes represent “high-level business decisions” that were used to impact
           future work instead of the actual cost of the items. For this reason, Hamilton
           Sundstrand refused to provide any OEM sales data on any subsequent requests of
           sales histories made by DoD contracting officials. In June 2006, Hamilton
           Sundstrand provided documents to the Air Force contracting officer that showed
           the Lockheed Martin sales were repairs and not purchases of a new fuel control.
           However, the Hamilton Sundstrand sales data did not indicate that these
           transactions were repairs instead of actual sales. If the Hamilton Sundstrand sales
           data include repairs with actual sales, we question the reliability and usefulness of
           the sales information to develop contract prices.

           In order to make valid pricing decisions for commercial items, contracting
           officers must have a complete history of commercial market sales that includes
           OEM or prime contractor sales and any other sales of the exact or similar items.
           Contractors must not be allowed to pick and choose the sales history provided to
           DoD contracting officials because the contractor can influence the price
           negotiated by providing only high commercial prices and there is no incentive to
           provide commercial sales that have lower prices. If contracting officials do not
3
    Contractor proprietary data omitted.



                                                14
    obtain commercial sales of similar quantities to DoD annual demand quantities,
    the results of any price analysis will not be effective to establish price
    reasonableness.


Price Reasonableness of Exempt Noncompetitive
  Commercial Items
    The Air Force and DLA contracting officers did not adequately determine price
    reasonableness of exempt noncompetitive commercial items because effective
    procedures and methods had not been developed and incorporated into the FAR
    as required by the Strom Thurmond National Defense Authorization Act for
    Fiscal Year 1999. Even though the Air Force requested additional cost
    information from the contractor to support price reasonableness as required, the
    contractor refused to provide the cost information. Thus, the Air Force and DLA
    were forced to rely primarily on price analysis of previous Government prices that
    had been determined not to be fair and reasonable by DLA and on previous audits
    (see finding B). This strategy places the Government at high risk of paying
    excessive prices and profits and precludes good fiduciary responsibility for DoD
    funds.


Guidance on Commercial Item Determinations and
  Commercial Item Exceptions to Cost or Pricing Data
    Guidance on commercial item determinations and commercial item exceptions to
    cost or pricing data in the United States Code and FAR has become muddled and
    disordered. Current guidance on the definition of commercial items allows
    contractors to continuously argue with contracting officers that basically every
    item DoD purchases is a commercial item. Guidance in FASA required that
    commercial items be sold in substantial quantities and provided “Additional
    Special Rules for Commercial Items” addressing differences in commercial item
    exceptions for competitive and noncompetitive procurements. FASA also
    provided clear guidance for noncompetitive procurements on obtaining
    commercial sales information from the offeror or contractor, performing price
    analysis of the commercial sales to determine price reasonableness, the situations
    when a commercial item exception applied, and the situations when a contracting
    officer should request cost or pricing data.

    However, FARA amended 10 U.S.C. 2306a by removing the FASA requirement
    that commercial items be sold in substantial quantities and the specific
    requirement that items be “sold in the commercial market” for noncompetitive
    procurements of commercial items. FARA also did not clearly distinguish the
    limitations on requests for information between competitive and noncompetitive
    procurements. Excerpts from FARA have subsequently been incorporated into
    the FAR with unclear guidance relating to exceptions from cost or pricing data for
    noncompetitive commercial items and the data that should be requested to
    determine price reasonableness.


                                        15
FASA. On October 13, 1994, Congress enacted Public Law 103-355, the
“Federal Acquisition Streamlining Act of 1994.” The purpose of FASA was to:
       … revise and streamline the acquisition laws of the Federal
       Government in order to reduce paperwork burdens, facilitate the
       acquisition of commercial products, enhance the use of simplified
       procedures for small purchases, clarify protest procedures, eliminate
       unnecessary statutory impediments to efficient and expeditious
       acquisition, achieve uniformity in the acquisition practices of Federal
       agencies, and increase the efficiency and effectiveness of the laws
       governing the manner in which the Government obtains goods and
       services. [Senate Report 103-258]

Specifically, FASA amended subsection (b) “Exceptions” of 10 U.S.C. 2306a,
“Cost or pricing data: truth in negotiations,” to provide an exception for
commercial items sold in substantial quantities. Subsection (b) stated:
       (b) EXCEPTIONS.-
           (1) IN GENERAL. – Submission of cost or pricing data shall not
       be required under subsection (a) in the case of a contract, a subcontract,
       or modification of a contract or subcontract--
                 (A) for which the price agreed upon is based on--
                    (i) adequate price competition;
                    (ii) established catalog or market prices of commercial
                 items that are sold in substantial quantities to the general
                 public; or
                    (iii) prices set by law or regulation; or
                 (B) in an exceptional case when the head of the procurement
       activity, without delegation, determines that the requirements of this
       section may be waived and justifies in writing the reasons for such
       determination. [emphasis added]

FASA provided additional exception provisions for commercial items and
established a preference for procurement of commercial items on a competitive
basis and that agencies should generally not request additional information from
the offeror on competitive solicitations. In addition, FASA provided specific
guidance for noncompetitive commercial items requiring that the contracting
officer obtain information on prices at which the same or similar items have been
sold in the commercial market from the offeror or contractor that is adequate for
evaluating, through price analysis, the reasonableness of price. The contracting
officer may also require submission of cost or pricing data if the offeror or
contractor failed to provide such information. FASA amended 10 U.S.C. 2306a
as follows:
       (d) ADDITIONAL EXCEPTION PROVISIONS REGARDING
       COMMERCIAL ITEMS--
               (1) PROCUREMENTS BASED ON ADEQUATE PRICE
       COMPETITION.-To the maximum extent practicable, the head of an
       agency shall conduct procurements of commercial items on a
       competitive basis. In any procurement of a commercial item
       conducted on a competitive basis and based upon adequate price
       competition, the head of the agency conducting the procurement shall



                                          16
       not require cost or pricing data to be submitted under subsection (a) for
       the contract, subcontract, or modification of the contract or subcontract
       under the procurement. If additional information is necessary to
       determine the reasonableness of the price of the contract,
       subcontract, or modification, the head of the agency shall, to the
       maximum extent practicable, obtain the additional information
       from sources other than the offeror.
                (2) PROCUREMENTS NOT BASED ON ADEQUATE
       PRICE COMPETITION.-(A)(i) In any case in which it is not
       practicable to conduct a procurement of a commercial item covered by
       subsection (a) on a competitive basis, and the procurement is not
       covered by an exception in subsection (b), the contracting officer
       shall seek to obtain from the offeror or contractor information
       described in clause (ii). When such information is not available from
       that source, the contracting officer shall seek to obtain such
       information from another source or sources.
                (ii) The information referred in clause (i) is information on
       prices at which the same item or similar items have been sold in the
       commercial market that is adequate for evaluating, through price
       analysis, the reasonableness of the price of the contract, subcontract,
       or modification of the contract or subcontract under the procurement.
                (B) The contracting officer shall exempt a contract or
       subcontract, or modification of a contract or subcontract under the
       procurement from the requirements of subsection (a) if the contracting
       officer obtains the information described in subparagraph (A)(ii) in
       accordance with standards and procedures set forth in the Federal
       Acquisition Regulation.
                (C) A contracting officer may require submission of cost
       or pricing data under subsection (a) only if the contracting officer
       makes a written determination that the agency is unable to obtain
       the information described in subparagraph (A)(ii). [emphasis
       added]

FARA. On February 10, 1996, Congress enacted Public Law 104-106, the
“National Defense Authorization Act for Fiscal Year 1996.” Division D of the
Act was titled the “Federal Acquisition Reform Act of 1996.” Section 4201,
“Commercial Item Exception to Requirements for Certified Cost or Pricing
Data” amended FASA and eliminated the requirement for commercial items to be
sold in substantial quantities to the general public.

FARA also removed the “Additional Exception Provisions Regarding
Commercial Items,” which included the clear guidance on noncompetitive
commercial items. FARA did leave in the requirement for noncompetitive
procurements that requires contracting officers to require the submission of
appropriate information on the prices at which the same item or similar items
have previously been sold that is adequate for evaluating the reasonableness of
price of the procurement. While the guidance no longer specifically states “sold
in the commercial market,” it would be impractical to require the submission of
information other than sales in the commercial market.




                                          17
FARA amended 10 U.S.C. 2306a as follows:
      SEC. 4201. COMMERCIAL ITEM EXCEPTION TO
      REQUIREMENT FOR CERTIFIED COST OR PRICING DATA
                                                                                   Deleted: established catalog or market prices of
                                                                                   commercial items that are sold in substantial
      (b) EXCEPTIONS.-                                                             quantities to the general public;
          (1) IN GENERAL. – Submission of certified cost or pricing data
      shall not be required under subsection (a) in the case of a contract, a      Deleted: ADDITIONAL EXCEPTON
                                                                                   PROVISIONS REGARDING COMMERCIAL
      subcontract, or modification of a contract or subcontract--                  ITEMS.--
                (A) for which the price agreed upon is based on--
                   (i) adequate price competition; or                              Deleted: PROCUREMENTS BASED ON
                                                                                   ADEQUATE PRICE COMPETITION.-To the
                    (ii) prices set by law or regulation                           maximum extent practicable, the head of an agency
                (B) for the acquisition of a commercial item; or                   shall conduct procurements of commercial items on a
                (C) in an exceptional case when the head of the procuring          competitive basis. In any procurement of a
      activity, without delegation, determines that the requirements of this       commercial item conducted on a competitive basis
                                                                                   and based upon adequate price competition, the head
      section may be waived and justifies in writing the reasons for such          of the agency conducting the procurement shall not
      determination. [emphasis added]                                              require cost or pricing data to be submitted under
                                                                                   subsection (a) for the contract, subcontract, or
       (d) SUBMISSION OF OTHER INFORMATION-                                        modification of the contract or subcontract under the
                                                                                   procurement. If additional information is necessary
                 (1) AUTHORITY TO REQUIRE SUBMISSION.-When                         to determine the reasonableness of the price of the
      certified cost or pricing data are not required to be submitted under this   contract, subcontract, or modification, the head of
      section for a contract, subcontract, or modification of a contract or        the agency shall, to the maximum extent practicable,
      subcontract, the contracting officer shall require submission of data        obtain the additional information from sources other
                                                                                   than the offeror.
      other than certified cost or pricing data to the extent necessary to
      determine the reasonableness of the price of the contract, subcontract,      Deleted: PROCUCREMENTS NOT BASED ON
                                                                                   ADEQUATE PRICE COMPETITION.—
      or modification of the contract or subcontract. Except in the case of a
      contract or subcontract covered by exceptions in subsection (b)(1)(A),       Deleted: (i) In any case in which it is not
      the data submitted shall include, at a minimum, appropriate                  practicable to conduct a procurement of a
                                                                                   commercial item covered by subsection (a) on a
      information on the prices at which the same item or similar items            competitive basis, and the procurement is not
      have previously been sold that is adequate for evaluating the                covered by an exception in subsection (b), the
      reasonableness of the price of the procurement.                              contracting officer shall seek to obtain from the
                 (2) LIMITATIONS ON AUTHORITY.-The Federal                         offeror or contractor information described in clause
                                                                                   (ii). When such information is not available from
      Acquisition Regulation shall include the following provisions                that source, the contracting officer shall seek to
      regarding the types of information that contracting officers may require     obtain such information from another source or
      under paragraph (1):                                                         sources.
                 (A) Reasonable limitations on requests for sales data relating       (ii) The information referred in clause (i) is
                                                                                   information on prices at which the same item or
      to commercial items.
                                                                                   similar items have been sold in the commercial
                 (B) A requirement that a contracting officer limit, to the        market that is adequate for evaluating through
      maximum extent practicable, the scope of any request for information         price analysis, the reasonableness of the price of
      relating to commercial items from an offeror to only that information        the contract, subcontract, or modification of the
                                                                                   contract or subcontract under the procurement.
      that is in the form regularly maintained by the offeror in commercial
      operations.                                                                  Deleted: The contracting officer shall exempt a
                 (C) A statement that any information received relating to         contract or subcontract, or modification of a contract
                                                                                   or subcontract under the procurement from the
      commercial items that is exempt from disclosure under section 552(b)         requirements of subsection (a) if the contracting
      of title 5 shall not be disclosed by the Federal Government.                 officer obtains the information described in
                                                                                   subparagraph (A)(ii) in accordance with standards
                                                                                   and procedures set forth in the Federal Acquisition
                                                                                   Regulation.
                                                                                   Deleted: A contracting officer may require
                                                                                   submission of cost or pricing data under
                                                                                   subsection (a) only if the contracting officer
                                                                                   makes a written determination that the agency is
                                                                                   unable to obtain the information described in
                                                                                   subparagraph (A)(ii).



                                         18
When (d)(1) “Authority to Require Submission,” was incorporated in
Section 2306a, there was no mention that it specifically relates to noncompetitive
commercial items. FARA also placed additional limitations on information that
contracting officers should request but did not clearly distinguish between
competitive and noncompetitive procurements. FASA, however, made it clear
that the head of the agency should to the maximum extent practicable, obtain
additional information from sources other than the offeror for competitive
commercial item procurements and that the contracting officer shall obtain
information from the offeror or contractor for noncompetitive commercial item
procurements.

FAR Pricing Guidance on Commercial Items Exceptions to Cost or Pricing
Data Requirements. FAR 15.403-1, “Prohibition on Obtaining Cost or Pricing
Data” (10 U.S.C. 2306a and 41 U.S.C. 254b), provides guidance on commercial
items exceptions to cost or pricing data requirements. It also addresses guidance
in the Ronald W. Reagan National Defense Authorization Act for Fiscal
Year 2005 that prohibits the commercial item exception to cost or pricing for
noncommercial modifications of commercial items, if the cost of the modification
exceeds the greater of $500,000 or five percent of the total contract price. The
exception for a commercial item states:
       (b) Exceptions to cost or pricing data requirements….
         (3) When a commercial item is being acquired (see standards in
       paragraph (c)(3) of this subsection);

       (c) Standards for exceptions from cost or pricing data requirements--
       …
          (3) Commercial items.
                (i) Any acquisition of an item that meets the commercial item
                definition in 2.101, or any modification, as defined in
                paragraph (3)(i) of that definition, that does not change the
                item from a commercial item to a noncommercial item, is
                exempt from the requirement for cost or pricing data. If the
                contracting officer determines that an item claimed to be
                commercial is, in fact, not commercial and that no other
                exception or waiver applies, the contracting officer must
                require submission of cost or pricing data.

               (ii) The following requirements apply to minor modifications
               defined in paragraph (3) (ii) of the definition of a commercial
               item at 2.101 that do not change the item from a commercial
               item to a noncommercial item:
                         (A) For acquisitions funded by any agency other than
               DoD, NASA, or Coast Guard, the modifications are exempt
               from the requirement for submission of cost or pricing data.
                         (B) For acquisitions funded by DoD, NASA, or
               Coast Guard, the modification are exempt from the
               requirement for submission of cost or pricing data provided
               the total cost of the modifications do not exceed the greater of
               $500,000 or 5 percent of the total price of the contract.
                         (C) For acquisitions funded by DoD, NASA, or
               Coast Guard where the total cost of the modifications exceed



                                         19
                             the greater of $500,000 or 5 percent of the total price of the
                             contract and no other exception or waiver applies, the
                             contracting officer must require submission of cost or pricing
                             data.

           Because the changes made to the United States Code by FARA did not clearly
           distinguish requirements for competitive and noncompetitive requirements of
           commercial items, FAR and DoD guidance has become equally confusing. For
           example, FAR 15.403-3, “Requiring Information Other Than Cost or Pricing
           Data,” 4 provides guidance that contracting officers obtain information that is
           adequate for evaluating the reasonableness of price and generally directs the
           contracting officer to obtain information from sources other than the offeror. In
           section “(a) General,” the contracting officer is required to request information
           from the offeror; however, there is no indication in the reference that this applies
           specifically to noncompetitive commercial items. Section “(c) Commercial
           items,” requires the contracting officer to use price analysis to determine whether
           the price is fair and reasonable and then places additional limitations on
           contracting officers relating to commercial items.
                    (a) General.
                              (1) The contracting officer is responsible for obtaining
                    information that is adequate for evaluating the reasonableness of the
                    price or determining cost realism, but the contracting officer should not
                    obtain more information than is necessary (see 15.402 (a)). If the
                    contracting officer cannot obtain adequate information from sources
                    other than the offeror, the contracting officer must require submission
                    of information other than cost or pricing data from the offeror that is
                    adequate to determine a fair and reasonable price 10 U.S.C.
                    2306a(d)(1) and 41 U.S.C.254b(d)(1)). Unless an exception under
                    15.403-1(b)(1) or (2) applies, the contracting officer must require
                    that the information submitted by the offeror include at a
                    minimum, appropriate information on the prices at which the
                    same or similar items have previously been sold, adequate for
                    determining the reasonableness of the price. To determine the
                    information an offeror should be required to submit, the contracting
                    officer should consider the guidance in Section 3.3, Chapter 3, Volume
                    I, or the Contract Pricing Reference Guide cited at 15.404-1(a)(7).

                    (c) Commercial items.
                           (1) At a minimum, the contracting officer must use price
                           analysis to determine whether the price is fair and
                           reasonable whenever the contracting officer acquires a
                           commercial item (see 15.404-1(b)). The fact that is [sic] price
                           is included in a catalog does not in and of itself, make it fair
                           and reasonable. If the contracting officer cannot determine
                           whether an offered price is fair and reasonable, even after
                           obtaining additional information from sources other than the

4
    “Information other than cost or pricing data” means any type of information that is not required to be
    certified in accordance with FAR 15.406-2 and is necessary to determine price reasonableness or cost
    realism. For example, such information may include pricing, sales, or cost information, and includes cost
    or pricing data for which certification is determined inapplicable after submission.



                                                       20
                offeror, then the contracting officer must require the offeror to
                submit information other than cost or pricing data to support
                further analysis (see 15.404-1).

                (2) Limitations relating to commercial items (10 U.S.C.
                2306a(d)(2) and 41 U.S.C. 254b(d)).
                         (i) The contracting officer must limit requests for
                         sales data relating to commercial items to data for the
                         same or similar items during a relevant time period.
                         (ii) The contracting officer must, to the maximum
                         extent practicable, limit the scope of the request for
                         information relating to commercial items to include
                         only information that is in the form regularly
                         maintained by the offeror as part of its commercial
                         operations.
                         (iii) The Government must not disclose outside the
                         Government information obtained relating to
                         commercial items that is exempt from disclosure
                         under 24.202(a) or the Freedom of Information Act
                         (5 U.S.C. 552(b)). [emphasis added]

Optional FAR Contract Clause for Exempt Commercial Items. There is an
optional contract clause at FAR 52.215-20, “Requirements for Cost or Pricing
Data or Information Other Than Cost or Pricing Data,” that does incorporate
FASA guidance for exempt commercial items. The guidance requires that “the
offeror shall submit, at a minimum, information on prices at which the same or
similar items have previously been sold in the commercial market that is adequate
for evaluating the reasonableness of the price.” However, the clause was not used
in the Hamilton Sundstrand strategic sourcing commercial contract.
       (a) Exceptions from cost or pricing data.

                (1) In lieu of submitting cost or pricing data, offerors may
       submit a written request for exception by submitting the information
       described in the following subparagraphs. The Contracting Officer
       may require additional supporting information, but only to the extent
       necessary to determine whether an exception should be granted, and
       whether the price is fair and reasonable.

                (ii) Commercial item exception. For a commercial item
       exception, the offeror shall submit, at a minimum, information on
       prices at which the same item or similar items have previously
       been sold in the commercial market that is adequate for evaluating
       the reasonableness of the price for this acquisition. Such
       information may include —
                (A) For catalog items, a copy of or identification of
                the catalog and its date, or the appropriate pages for the
                offered items, or a statement that the catalog is on file in the
                buying office to which the proposal is being submitted.
                Provide a copy or describe current discount policies and price
                lists (published or unpublished), e.g., wholesale, original
                equipment manufacturer, or reseller. Also explain the basis of



                                          21
               each offered price and its relationship to the established
               catalog price, including how the proposed price relates to the
               price of recent sales in quantities similar to the proposed
               quantities;
               (B) For market-priced items, the source and date or period of
               the market quotation or other basis for market price, the base
               amount, and applicable discounts. In addition, describe the
               nature of the market;
               (C) For items included on an active Federal Supply Service
               Multiple Award Schedule contract, proof that an exception
               has been granted for the schedule item. [emphasis added]

Defense Procurement Guidance. On August 2, 2000, the Director, Defense
Procurement issued a memorandum, “Obtaining Information for Pricing Sole-
Source Commercial Items.”

       Please remind your contracting professionals that the clause at
       FAR 52.215-20 should be included in solicitations for sole-source
       commercial items when the contracting officer has a reasonable
       expectation that the offeror will request a commercial item
       exception to a requirement for submission of certified cost or
       pricing data, and that the offeror will need to provide, at a minimum,
       appropriate information on the prices at which the same or similar
       items have been previously sold. Additional information may be
       requested to the extent needed to permit an adequate evaluation of the
       proposed price in accordance with FAR 15.403-3. [emphasis added]

However, the Director’s guidance again seems confusing. For example, the
guidance reminds contracting officers to use FAR 52.215-20 when the contracting
officer has a reasonable expectation that the offeror would request a commercial
item exception to cost or pricing data. At the same time, it reminds contracting
officers not to request information from the contractor or offeror if sufficient
information was available within the Government or from other sources.
       However, as a matter of policy, FAR 15.402(a) (2)(i) states that
       offerors should not be requested to provide additional information
       if the contracting officer already has information, available from
       within the Government or from other sources, that is adequate for
       evaluating price reasonableness. [emphasis added]

The guidance on not requesting additional information from the offeror would be
appropriate for competitive items but clearly does not apply to noncompetitive
items where contracting officers are required to obtain information from the
offeror.

Commercial Item Definition and Commercial Item Exception to Cost or
Pricing Data Summary. The commercial item determinations performed by the
Air Force and DLA for items developed primarily for military applications are of
little, if any, value because the broadness of the commercial item definition
allows virtually any noncompetitive item DoD purchases to be arguably a
commercial item and qualify for a commercial item exception to cost or pricing
data. The broadness of these commercial item determinations and absence of a


                                        22
commercial market raise serious questions as to the extent to which legislative
goals and objectives are being achieved for these noncompetitive “commercial
items.”

Further, clarifying guidance on “of a type” items provided by the USD(AT&L)
has not deterred the use of commercial contracts to acquire noncompetitive
military-unique items. Specifically, there is no requirement that a commercial
market even exists before an item is determined to be commercial. Marketplace
pricing for noncompetitive items that links commercial sales of the same or
similar item to sales of military-unique items is critical to determine fair and
reasonable prices.

Current guidance in the United States Code, FAR, and other DoD guidance is also
confusing because it does not clearly differentiate requirements associated with
competitive and noncompetitive procurements of commercial items.

The USD(AT&L) needs to develop and issue guidance for inclusion in
acquisition regulations (Defense Federal Acquisition Regulation/FAR) to further
clarify exceptions to cost or pricing data for noncompetitive commercial items
that:

       •   Addresses statutory requirements and provides instructions that
           contracting officers shall require submission of data other than
           certified cost or pricing data from the offeror or contractor. At a
           minimum, this data shall include appropriate information on the prices
           at which the same or similar items have previously been sold in the
           commercial market that is adequate for evaluating the reasonableness
           of the price of the procurement.

       •   Establishes FAR 52-215.20 (ii), “Commercial Item Exception,” as a
           mandatory contract requirement in FAR Part 12 contracts.

       •   Instructs contracting officers to limit requests for information from the
           offeror or contractor on commercial sales to quantities similar to DoD
           annual demand quantities.

       •   Instructs appropriate Government officials to make a determination
           that any “of a type” item is sufficiently similar to the military item and
           any difference in price can be identified and justified. Any significant
           difference in similarity or price should be supported by cost analysis.

       •   Instructs contracting officers to make a determination as to whether
           commercial sales information provided by the offeror or contractor is
           adequate to support a price reasonableness determination.

       •   Instructs contracting officers to require additional “information other
           than cost or pricing data” from the offeror or contractor that includes
           cost information when the contracting officer makes a determination
           that commercial sales information is not adequate to support price
           reasonableness.



                                     23
Guidance on Determining Price Reasonableness of Exempt
  Commercial Items
    DoD has not revised and clarified the procedures and methods to be used for
    determining the reasonableness of prices of exempt commercial items in the FAR
    as required by the Strom Thurmond National Defense Authorization Act for
    Fiscal Year 1999.

    Strom Thurmond Act. The Strom Thurmond National Defense Authorization
    Act for Fiscal Year 1999 requires DoD to revise and clarify in the FAR the
    procedures and methods to be used for determining the reasonableness of prices
    of exempt commercial items. Specifically, Section 803, “Defense Commercial
    Pricing Management Improvement,” states:
           (a) MODIFICATION OF PRICING REGULATIONS FOR CERTAIN
           COMMERCIAL ITEMS EXEMPT FROM COST OR PRICING
           DATA CERTIFICATION REQUIREMENTS—(1) The Federal
           Acquisition Regulation issued in accordance with sections 6 and 25 of
           the Office of Federal Procurement Policy Act (41 U.S.C. 405, 421)
           shall be revised to clarify the procedures and methods to be used
           for determining the reasonableness of prices of exempt commercial
           items (as defined in subsection (d)).
           (2) The regulations shall, at a minimum, provide specific guidance
           on—
                    (A) the appropriate application and precedence of such price
                    analysis tools as catalog-based pricing, market-based pricing,
                    historical pricing, parametric pricing, and value analysis;
                    (B) the circumstances under which contracting officers
                    should require offerors of exempt commercial items to
                    provide--
                             (i) information on prices at which the offeror has
                              previously sold the same or similar items; or
                              (ii) other information other than certified cost or
                              pricing data;
                    (C) the role and responsibility of Department of Defense
                    support organizations in procedures for determining price
                    reasonableness; and
                    (D) the meaning and appropriate application of the term
           “purposes other than governmental purposes” in section 4(12) of the
           Office of Federal Procurement Policy Act (41 U.S.C. 403(12)).
           [emphasis added]

    FAR 15.402, “Pricing Policy,” provides an order of preference in determining the
    type of information required by contracting officers to determine price
    reasonableness; however, the guidance does not specifically address
    noncompetitive commercial items. Further, the guidance directs contracting
    officers away from requesting information from the offeror or contractor that is
    required by the United States Code for noncompetitive commercial item
    procurements. The guidance lists the three least preferable methods of
    determining fair and reasonable prices for noncompetitive commercial items:


                                             24
obtaining information from the offeror, obtaining cost information, and obtaining
cost or pricing data. Further, while the guidance in (A)(2)(i) is appropriate for
competitive procurements, the guidance is not appropriate for noncompetitive
procurements.
       Contracting officers must --

       (a) Purchase supplies and services from responsible sources at fair and
       reasonable prices. In establishing the reasonableness of the offered
       prices, the contracting officer must not obtain more information than is
       necessary. To the extent that cost or pricing data are not required by
       15.403-4, the contracting officer must generally use the following order
       of preference in determining the type of information required:

                (1) No additional information from the offeror, if the price is
                based on adequate price competition, except as provided by
                15.403-3(b).
                (2) Information other than cost or pricing data:
                          (i) Information related to prices (e.g., established
                          catalog or market prices or previous contract prices),
                          relying first on information available within the
                          Government; second, on information obtained from
                          sources other than the offeror; and, if necessary, on
                          information obtained from the offeror. When
                          obtaining information from the offeror is necessary,
                          unless an exception under 15.403-1(b) (1) or (2)
                          applies, such information submitted by the offeror
                          shall include, at a minimum, appropriate information
                          on the prices at which the same or similar items have
                          been sold previously, adequate for evaluating the
                          reasonableness of the price.
                          (ii) Cost information, that does not meet the
                          definition of cost or pricing data at 2.101.
                (3) Cost or pricing data. The contracting officer should use
                every means available to ascertain whether a fair and
                reasonable price can be determined before requesting cost
                or pricing data. Contracting officers must not require
                unnecessarily the submission of cost or pricing data, because
                it leads to increased proposal preparation costs, generally
                extends acquisition lead time, and consumes additional
                contractor and Government resources. [emphasis added]

Commercial Pricing Summary. The USD(AT&L) needs to develop and issue
guidance for inclusion in acquisition regulations (Defense Federal Acquisition
Regulation/FAR) as required by the Strom Thurmond National Defense
Authorization Act for FY 1999 to further clarify pricing noncompetitive
commercial items to:

       •   instruct contracting officers to perform price analysis of commercial
           sales, when sales of the same or similar item previously sold in the
           commercial market are adequate for evaluating, through price analysis,



                                          25
               the reasonableness of price and ensure the integrity of commercial
               sales information.

           •   instruct contracting officers to obtain “information other than cost or
               pricing data” which includes cost information and perform cost
               analysis if commercial sales are not adequate to determine price
               reasonableness. Price analysis of the previous Government price is
               acceptable if recent cost analysis or competition was used to support
               the price and there have been no known changes in the manufacturing
               process that could significantly impact the contractor’s costs.

    Past Performance. FAR Subpart 42.15, “Contractor Performance Information,”
    provides policies and establishes responsibilities for recording and maintaining
    contractor past performance information. It defines past performance information
    as relevant information for future source selection purposes regarding a
    contractor’s actions under previously awarded contracts. It includes the
    contractor’s history of reasonable and cooperative behavior and commitment to
    customer satisfaction, and generally, the contractor’s businesslike concern for the
    interest of the customer. Contractors in noncompetitive situations may refuse to
    provide DoD contracting officers with cost information required to determine
    price reasonableness (see finding B). The USD(AT&L) needs to address whether
    unreasonable and uncooperative contractors that refuse to provide either
    commercial sales information or “information other than cost or pricing data” to
    include cost information, should receive Red (unsatisfactory) out-of-cycle ratings
    in the Contractor Performance Assessment Reporting System (CPARS) under
    “Business Relations.”


Recommendations and Management Comments
    A.1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics develop and issue guidance in the acquisition
    regulations (Defense Federal Acquisition Regulation/Federal Acquisition
    Regulation) to:

          a. Further clarify exceptions to cost or pricing data for
    noncompetitive commercial items that:

                   1. Address statutory requirements and provide instructions
    that contracting officers shall require submission of data other than certified
    cost or pricing data from the offeror or contractor. At a minimum, this data
    shall include appropriate information on the prices at which the same or
    similar items have previously been sold in the commercial market that is
    adequate for evaluating the reasonableness of the price of the procurement.

                 2. Establish Federal Acquisition Regulation 52-215.20 (ii),
    “Commercial Item Exception,” as a mandatory contract requirement in
    Federal Acquisition Regulation Part 12 contracts.




                                        26
              3. Instruct contracting officers to limit requests for
information from the offeror or contractor on commercial sales to quantities
similar to DoD annual demand quantities.

               4. Instruct appropriate Government officials to make a
determination whether any “of a type” item is sufficiently similar to the
military item and any difference in price can be identified and justified. Any
significant difference in similarity or price should be supported by cost
analysis.

              5. Instruct contracting officers to make a determination as to
whether commercial sales information provided by the offeror or contractor
is adequate to support a price reasonableness determination.

               6. Instruct contracting officers to require additional
“information other than cost or pricing data” from the offeror or contractor
that includes cost information when the contracting officer makes a
determination that commercial sales information is not adequate to support
price reasonableness.

       b. Further clarify pricing of noncompetitive commercial items as
required by the Strom Thurmond National Defense Authorization Act for
Fiscal Year 1999 that:

              1. Instructs contracting officers perform price analysis of
commercial sales, when sales of the same or similar item previously sold in
the commercial market are adequate for evaluating, through price analysis,
the reasonableness of price and ensure the integrity of commercial sales
information.

               2. Instructs contracting officers to obtain “information other
than cost or pricing data” which includes cost information and perform cost
analysis if commercial sales are not adequate to determine price
reasonableness. Price analysis of the previous Government price is
acceptable if recent cost analysis or competition was used to support the
price and there have been no known changes in the manufacturing process
that could significantly impact the contractor’s costs.

A.2. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics address whether unreasonable and uncooperative
contractors that refuse to provide either commercial sales information or
“information other than cost or pricing data” to include cost information,
should receive “red” (unsatisfactory) out-of-cycle ratings in the Contractor
Performance Assessment Reporting System under “Business Relations.”


Management Comments. The USD(AT&L) concurred with each
recommendation and initiated efforts that should help DoD contracting
professionals improve commercial item determinations, commercial item
exceptions to cost or pricing data, and obtain appropriate information (that
is, adequate commercial sales or cost information) to determine the price


                                    27
reasonableness of commercial noncompetitive spare parts. Specifically, the
Director will meet with Senior Procurement Executives, deliberate a Federal
Acquisition Regulation case, revise DoD procedures and guidance, re-energize
the cost analysis and pricing function, and revise the contract pricing reference
guide to satisfy the recommendations.




                                     28
           B. “Commercial” Pricing Strategy for
           Noncompetitive Spare Parts
                    The Air Force negotiating team used a high-risk “commercial” pricing
                    strategy that failed to effectively use either marketplace pricing5 or cost
                    analysis for noncompetitive spare parts placed on the strategic sourcing
                    contract with Hamilton Sundstrand. The Air Force did attempt to obtain
                    cost information to support price reasonableness after the DoD OIG
                    notified the Air Force of overpricing concerns based on two previous
                    audits where contracting officers were not using either marketplace
                    pricing or cost analysis to determine fair and reasonable prices for
                    noncompetitive items. However, Hamilton Sundstrand denied the request
                    and has repeatedly refused attempts by DoD contracting officials to obtain
                    the information necessary to determine price reasonableness for
                    noncompetitive spare parts. In July 2000, a similar strategic sourcing
                    contract between DLA and Hamilton Sundstrand failed because an
                    agreement on a pricing strategy could not be reached. The Air Force
                    pricing strategy was ineffective because:

                        •    “catalog” (marketplace) pricing was not used to support price
                             reasonableness for any of the 1,011 “commercial” items placed on
                             contract;

                        •    cost data was obtained for only 34.4 percent of the annual dollar
                             value for items with historical demand and a significant number of
                             items had not been procured for extended periods or were
                             manufactured at locations with newly established manufacturing
                             standards that had not been audited, making any cost analysis less
                             effective; and

                        •    price analysis of questionable previous Government prices was
                             used to support prices for 65.6 percent of the annual dollar value
                             for items with historical demand, and prices for a significant
                             number of the items had previously been determined not to be fair
                             and reasonable.

                    As a result, we calculated that the contract prices for 93 items where price
                    analysis was used, totaling more than $7.5 million annually, were
                    $1.7 million or 28.4 percent higher than could be explained by inflating
                    pre-FASA contract prices. We also calculated that price-based contract
                    prices for two items with an annual value of $1.4 million were $ 6         or
                       6
                            percent higher than cost-based prices.



5
    Information submitted by the offeror or contractor on prices at which the same item or similar items have
    been previously sold in the commercial market that is adequate for evaluating the reasonableness of price
    required by 10 U.S.C. 2306a(d)(1).
6
    Contractor proprietary data omitted.



                                                      29
“Commercial” Pricing Strategy
    Contract Pricing Strategy. The Air Force negotiating team used a high-risk
    “commercial” pricing strategy that failed to effectively use either marketplace
    pricing or cost analysis to price a sufficient percentage of the noncompetitive
    spare parts placed on the strategic sourcing contract with Hamilton Sundstrand.
    The pricing strategy used for Phase 1 of the contract was proposed by Hamilton
    Sundstrand and accepted by the Government with the intent to “standardize and
    simplify the process of providing price reasonableness information.” The
    objective of the pricing strategy was to “streamline the proposal and pricing
    process using price analysis and price-based pricing to the maximum extent
    practicable.” However, the strategy allowed Hamilton Sundstrand to provide cost
    data when it was beneficial to them but denied the Government access to cost data
    when it was in the Government’s best interest. The strategy included four pricing
    scenarios:

           •   Scenario 1—“Catalog”: Items listed in the Hamilton Sundstrand
               commercial catalog that had sales or offers in the past 3 years.
               Hamilton Sundstrand agreed to provide a copy of the catalog page and
               sales history, and may offer a discount off the catalog price.

           •   Scenario 2—Cost Data: Items with no sales or offer history in the past
               3 years. Hamilton Sundstrand will provide “other than cost or pricing
               data,” including a summary of rates, material costs, and labor costs, as
               well as additional pricing details on a sample basis.

           •   Scenario 3—Price Analysis: Items with a sales or offer history in the
               past 3 years. The Government will use previous sales and proposal
               history to justify prices including using escalation and considering
               quantity differences. Hamilton Sundstrand will provide price history,
               such as a Haystack Procurement History Report or sales history to
               other customers, and, if appropriate, “other than cost or pricing data.”

           •   Scenario 4—Other: Items in the scenarios above where the quoted
               price increased more than 25 percent in the last 24 months. Hamilton
               Sundstrand will provide price justification and a written and/or verbal
               explanation for the price increase.

    Pricing Scenario Used for All Items. The “catalog” pricing scenario was not
    used to support price reasonableness for any items. The Air Force analysis
    showed that the cost data scenario was used to support price reasonableness for
    40.5 percent of the annual dollar value of the items, while price analysis was used
    to support price reasonableness for 59.5 percent of the annual dollar value
    (dollars) for Phase 1 items placed on contract. However, the data included a
    significant number of items with no known historical or forecasted demand.




                                        30
Table 1 shows the Air Force data for the pricing strategy used to support price
reasonableness for the Phase 1 contract items.

                                 Table 1. Pricing Strategy
                                 Used for All Phase 1 Items
      Scenario                                          Items           Annual Price         Percent
      1. “Catalog”                                          0                     0              0.0

      2. Cost-Based
          Purchased (Vendor Quotes)                       510          $ 1,943,115                9.9
          Manufactured                                    184            6,008,495               30.6
            Cost-Based Subtotal                           694            7,951,610               40.5

      3. Price Analysis
           Price-Based                                    254            11,415,845              58.2
           “Catalog”                                       63               259,139               1.3
             Price Analysis Subtotal                      317            11,674,984              59.5

               Total                                    1,011           $19,626,595*           100.0
      *
       Slight rounding inconsistencies exist due to auditor calculations based on two decimal places.


DoD OIG Calculations. We determined that only 462 items with an annual price
of $16.3 million that were priced under Phase 1 of the contract had any historical
or forecasted demand while 549 items valued at $3.3 million had no known
historical or forecasted demand. We determined that for the items with known
historical or forecasted demand, none were priced using catalog or marketplace
pricing, and calculated that 34.4 percent of the items (dollars) were priced using
cost data while 65.6 percent of the items (dollars) were priced using price
analysis. Table 2 shows our calculations for the items with historical demand.

          Table 2. DoD OIG Calculations of Pricing Strategy Used for
             Phase 1 Items With Historical or Forecasted Demand
      Scenario                                          Items            Annual Price           Percent
      1. “Catalog”                                          0                      0                0.0

      2. Cost-Based
          Purchased (Vendor Quotes)                       161           $ 1,187,272                  7.3
          Manufactured                                     55             4,437,313                 27.2
            Cost-Based Subtotal                           216             5,624,585                 34.4

      3. Price Analysis
           Price-Based                                    224             10,498,915                64.3
           “Catalog”                                       22                215,250                 1.3
             Price Analysis Subtotal                      246             10,714,166*               65.6

               Total                                      462           $16,338,751               100.0
      *
       Slight rounding inconsistencies exist due to auditor calculations based on two decimal places.




                                                  31
    Table 3 shows our calculations for the items with no known historical or
    forecasted demand.

             Table 3. DoD OIG Calculations of Pricing Strategy Used for
              Phase 1 Items With No Historical or Forecasted Demand
      Scenario                             Items           Annual Price        Percent
      1. “Catalog”                             0                      0            0.0

      2. Cost-Based
          Purchased (Vendor Quotes)           349           $     755,843        23.0
          Manufactured                        129               1,571,182        47.8
            Cost-Based Subtotal               478               2,327,025        70.8

      3. Price Analysis
           Price-Based                         30                916,930         27.9
           “Catalog”                           41                 43,889          1.3
             Price Analysis Subtotal           71                960,819         29.2

             Total                            549           $3,287,844          100.0




Hamilton Sundstrand Actions
    The Air Force attempted to obtain cost information to support price
    reasonableness after the DoD OIG notified the Air Force of overpricing concerns
    based on two previous audits where contracting officers were not using either
    marketplace pricing (price analysis of sufficient commercial sales) or cost
    analysis to determine fair and reasonable prices for noncompetitive items.
    However, Hamilton Sundstrand denied the request and has repeatedly refused
    attempts by DoD contracting officials to obtain the information necessary to
    determine price reasonableness for noncompetitive spare parts since the
    implementation of FASA and FARA. In July 2000, a similar strategic sourcing
    contract between DLA and Hamilton Sundstrand failed because agreement on a
    pricing strategy could not be reached. The following is a chronology of
    significant events relating to DoD contracting officials attempts to obtain cost
    information from Hamilton Sundstrand.

            •    September 11, 1996—Sundstrand (now Hamilton Sundstrand
                 Corporation) withdraws from a spare parts pricing agreement with
                 DSCP that uses cost data to price items based on the implementation
                 of FASA.

            •    November 5, 1997—DoD OIG sends a memorandum to the Director,
                 DLA expressing concern that the team negotiating prices for DLA
                 corporate contract SP0700-98-D-9701 with Sundstrand (now Hamilton
                 Sundstrand Corporation) for noncompetitive commercial items had not
                 requested uncertified cost or pricing data.



                                         32
                             − November 7, 1997—The contracting officer for the negotiating
                               team sends a letter to Sundstrand requesting uncertified cost or
                               pricing data for 73 items where the negotiating team had been
                               unable to support the prices as fair and reasonable.

                             − November 10, 1997—Sundstrand accepts the Government’s
                               last offer (fourth offer) of $46.6 million instead of providing
                               cost data. Sundstrand’s initial proposal (September 17, 1997)
                                            7
                               was $               and the Government’s first offer
                                                                7
                               (October 15, 1997) was $                 .

                    •   February 6, 1998—DoD Inspector General Report 98-064,
                        “Commercial and Noncommercial Sole-Source Items Procured on
                        Contract N000383-93-G-M111,” finds that Sundstrand (now Hamilton
                        Sundstrand Corporation) is refusing to provide DLA contracting
                        officers with “uncertified” cost or pricing data and has terminated the
                        Defense Contract Management Agency (DCMA), Rockford, Illinois,
                        access to the Sundstrand cost history system.

                    •   May 2000—Hamilton Sundstrand refuses to provide the DSCC
                        contracting officer uncertified cost data to reconcile differences in
                        prices that could not be explained for contract SP0700-00-D-9713.

                    •   July 19, 2000—The Under Secretary of Defense for Acquisition
                        Reform charters a rapid improvement team to develop a Strategic
                        Supplier Alliance between DLA and Hamilton Sundstrand to obtain
                        mutually advantageous pricing among other goals. However, the
                        alliance fails because an agreeable pricing strategy could not be
                        established. Specifically, Hamilton Sundstrand refused to provide
                        commercial sales histories to determine whether a sufficient
                        commercial market existed for marketplace pricing and also refused to
                        provide uncertified cost data to establish fair and reasonable prices
                        when a sufficient commercial market did not exist.

                    •   October 16, 2003—DoD Inspector General Report D2004-012, “Sole-
                        Source Spare Parts Procured From an Exclusive Distributor,” shows
                        that Hamilton Sundstrand directed contracting officers to procure its
                        sole-source spare parts through its exclusive distributor, AAR Defense
                        Systems. The exclusive distributor will provide cost data for its
                        operations but is unable to obtain uncertified cost data to support
                        Hamilton Sundstrand prices.

                    •   May 10, 2004—The DoD OIG informs the Director, Contracting
                        Directorate, Ogden ALC, Hill Air Force Base, Utah, of concerns
                        related to the ongoing negotiations of a long-term contract for
                        “commercial” items with Hamilton Sundstrand based on two previous
                        audit reports. Both reports addressed not obtaining sufficient cost
                        information to support price reasonableness.

7
    Contractor proprietary data omitted.



                                                  33
              − June 8, 2004—The Director of the Contracting Directorate,
                Ogden ALC, Hill Air Force Base, Utah, formally requests
                appropriate cost and pricing information that would be
                sufficient to determine price reasonableness for cost driver
                items under the Air Force strategic sourcing contract.

              − June 10, 2004—The General Manager of Military Customer
                Support and Logistics for Hamilton Sundstrand states that the
                Air Force request for information other than cost or pricing
                data is an “unjustified departure” from the pricing agreement
                and should be discussed by the strategic supplier alliance
                executive committee prior to any unilateral request for
                uncertified cost information.

              − December 29, 2004—The Acting Director of the Contracting
                Directorate, Ogden ALC, Hill Air Force Base determines that
                the contractor had provided sufficient price comparison data to
                determine price reasonableness, and therefore they would
                proceed with awarding the contract.

       •   March 14, 2006—The DoD OIG briefs the Executive Director, Ogden
           ALC, Hill Air Force Base on preliminary audit results and concerns
           with the commercial pricing strategy for noncompetitive spare parts
           that had not established an effective means to determine price
           reasonableness.

              − March 15, 2006—The DoD OIG identifies 24 price-based parts
                with an annual price of $5.9 million that have experienced
                questionable price increases. The OIG recommends that the
                Air Force obtain cost data for these items from Hamilton
                Sundstrand and also request that DCMA to review the cost data
                to determine whether the unexplained price increases are
                supportable.

              − March 30, 2006—The Director of Contracting, Ogden ALC,
                Hill Air Force Base requests that Hamilton Sundstrand provide
                cost data for the 24 price-based parts to substantiate that the
                negotiated contract prices are fair and reasonable.

              − April 11, 2006—Hamilton Sundstrand in a letter to the
                Director of Contracting, Ogden ALC, Hill Air Force Base
                refuses to provide the cost data requested by the Air Force.

FAR 15.403-4 provides contracting officers the authority to request information
other than cost or pricing data or cost information when necessary to determine
price reasonableness. Given the continued unwillingness of Hamilton Sundstrand
to provide cost information when requested by senior DoD contracting officials,
the Air Force needs to initiate action to develop alternate sources for
noncompetitive Hamilton Sundstrand items. In addition, the Air Force needs to
determine whether Hamilton Sundstrand should receive a “red” (unsatisfactory)
out-of-cycle CPARS report in “Business Relations,” if the contractor’s behavior


                                  34
           continues to be uncooperative and unreasonable in meeting requests for cost
           information.


“Catalog” (Marketplace) Pricing
           Although Hamilton Sundstrand proposed prices based on a discount from their
           2004 commercial catalog and the Air Force negotiating team identified 63 items
           fitting the “catalog” scenario, “catalog” (marketplace) pricing was not used to
           support price reasonableness for any of the “commercial” items placed on
           contract for Phase 1. According to the DSCR cost analyst, if the “catalog” items
           had previously been sold to the Government, the prior Government prices were
           used as the basis for pricing the items on the Air Force strategic sourcing contract
           (price analysis). Further, for items that did not have previous Government sales,
                                                           8
           the negotiating team generally agreed to a           percent discount from the
           catalog price. However, after reviewing the Hamilton Sundstrand 2006
           commercial catalog, we determined that only 37 of the 63 items or 58.7 percent of
           the items were still listed in the catalog. Given the significant turnover in parts
           experienced in only 2 years, the usefulness of developing contract prices from the
           Hamilton Sundstrand catalog is questionable.

           We found that the Hamilton Sundstrand commercial sales histories were
           inadequate to establish fair and reasonable prices because of insufficient
           commercial sales, most commercial sales prices were significantly higher than
           previous DoD prices, some commercial customers received significantly better
           prices than DoD, and contractors are not required to provide all relevant
           commercial sales data to ensure the integrity of the data.

                   Insufficient Commercial Sales. Hamilton Sundstrand had insufficient
           commercial sales to establish fair and reasonable prices to use marketplace
           pricing (price analysis of commercial sales). For example, the commercial sales
           history for terminal boards (NSN 5940-00-856-0853) showed commercial market
           sales of significantly lower quantities with an average buy quantity of 1.29 units
           and total commercial sales over 4 years (2000–2003) of only 27 units. In
           comparison, DoD purchased terminal boards in significantly higher quantities
           with an average buy quantity of 116.75 units and total purchases over 6 years
           (2000–2005) of 467 units. The DoD annual demand quantity for the terminal
           board is 75 units. Consequently, Hamilton Sundstrand did not have sufficient
           commercial sales to support marketplace pricing for the terminal boards.




8
    Contractor proprietary data omitted.



                                                35
Table 4 shows the terminal board sales history for commercial and DoD sales.

                      Table 4. Commercial and DoD Sales History for
                        Terminal Boards (NSN 5940-00-856-0853)

                                              Commercial Market Sales
                                               Number     Average
    Calendar Year             Quantity         of Buys    Quantity      Unit Price*   Total*
          2000                    5                 4          1.25
          2001                    8                 8          1.00
          2002                   11                 6          1.83
          2003                    3                 3          1.00
            Total                  27              21          1.29

                                                  Prior DoD Sales
                                               Number      Average
    Calendar Year             Quantity         of Buys     Quantity     Unit Price     Total
           2000                  135                 1       135.00      $625.17      $ 84,398
           2002                      7               1          7.00      625.17         4,376
           2004                  125                 1       125.00       775.21        96,901
           2005                  200                 1       200.00       775.21       155,042
            Total                  467              4        116.75                   $340,717

        DoD Annual Demand Quantity for Air Force Strategic Sourcing Contract
   Annual
   Demand             75                                  $794.59        $ 59,594
   *
       Contractor proprietary data omitted.



Figure 1 shows the terminal board (NSN 5940-00-856-0853).




Figure 1. Terminal Board Supplied by Hamilton Sundstrand

        Sufficient Commercial Sales but Higher Commercial Prices. We
identified an instance where there appeared to be sufficient commercial sales to


                                                    36
           support marketplace pricing; however, the prices paid by the commercial
           customers were significantly higher than previous DoD prices. For example, in
           2001–2002, DSCR purchased 809 pump diaphragm assemblies (NSN 2915-00-
           877-3760) for $237.29 each. Figure 2 shows the pump diaphragm assembly
           (NSN 2915-00-877-3760).




           Figure 2. Pump Diaphragm Assembly Supplied by Hamilton Sundstrand

           During the same time period, Hamilton Sundstrand showed commercial sales of
           1,204 assemblies to part distributors and foreign companies at unit prices ranging
           from $ 9     to $      9
                                       or 9 to 9 percent higher than the previous
           Government prices. It will be difficult to justify the use of commercial
           marketplace pricing if previous Government prices are significantly lower than
           commercial prices.

                   Obtaining the Best Commercial Price. We also identified several
           instances where DoD negotiated prices were significantly higher than the prices
           paid by some commercial customers. For example, the strategic sourcing contract
           unit price for a straight headless pin (NSN 5315-01-314-3829) is $15.05 based on
           the annual demand of two. In 2003, DoD purchased 37 pins for $13.85 each.
           However, in December 2002, Hamilton Sundstrand sold two pins for $ 9 each
           to a commercial customer. As a result, we calculated that the negotiated price on
           the strategic sourcing contract was 9 percent higher than the best commercial
           customer price.

           Similarly, the strategic sourcing contract unit price for an induction coil armature
           (NSN 5945-01-505-9210) is $266.38, while the only previous commercial sale of
           the part shows a unit price of $ 9     for 15 armatures. We calculated the

9
    Contractor proprietary data omitted.



                                                37
                                                                10
           strategic sourcing contract negotiated price was           percent higher than the
           best commercial customer price.

                   Integrity of Commercial Sales Data. DoD has no means to ensure the
           integrity of commercial sales data. Specifically, there is no guarantee that the
           contractor will provide all commercial sales data, including sales to OEMs and
           prime contractors. In addition, for “of a type” items, there is no assurance that the
           contractor provides all similar items sold in comparable or large quantities that
           have lower commercial sales prices. Further, when performing price analysis of
           commercial sales, the terms and conditions of commercial sales must be reviewed
           to determine their impact on pricing.

           The failure of the Air Force to use commercial marketplace pricing (Scenario 1)
           for a significant number of items and the difficulty in effectively using the pricing
           strategy for even a limited number of items that meet the criteria is a clear
           indicator that a commercial procurement strategy was not appropriate to obtain
           fair and reasonable prices for these noncompetitive spare parts. Commercial
           contracts should only be used when sufficient commercial marketplace sales are
           available to effectively develop fair and reasonable prices for a significant
           number or percent of the total contract dollar amount.


Cost Data
           The Air Force negotiating team obtained cost data for 34.4 percent of the annual
           dollar value for items with historical or forecasted demand and a number of items
           had not been procured for extended periods or were manufactured at locations
           with newly established manufacturing standards that had not been audited,
           making any cost analysis less effective. We also found instances where the cost
           data used was questionable because Hamilton Sundstrand vendor quotes
           consistently failed to include economic order quantities, 10 , and significant
           demand changes exist that could affect the reasonableness of negotiated contract
           prices. Further, cost data was obtained for a significant number of items with no
           known or forecasted demand.

           The strategic sourcing pricing strategy required Hamilton Sundstrand to provide
           uncertified cost data for items that had no sales or offer history within the
           previous 3 years. Unfortunately, the less frequently an item is manufactured or
           procured, the higher the risk of obtaining unreliable cost information.

           Our review shows that prices for purchased parts (vendor quotes) and
           manufactured parts at locations other than Puerto Rico decreased by 10 and
             10
                 percent respectively when adjusted for inflation where cost data was used.
           Prices for parts manufactured in Puerto Rico increased by 10 percent when
           adjusted for inflation.



10
     Contractor proprietary data omitted.



                                                38
           Table 5 shows a summary of the parts reviewed where cost data was provided.

                                   Table 5. Summary of Cost-Based Parts Reviewed
                                                                                 Total Contract Price
                                                                                                                   Percent
                                                                  Items      Previous1         Air Force2         Difference1
                                                                                                    1
                  Purchased Parts (Vendor Quotes)                      21                       $
                  Manufactured Parts – Other
                                                                                                    1
                    Locations                                           4
                                                                                                    1
                  Manufactured Parts – Puerto Rico                     11
                         Total                                         36                       $2,927,365
              1
                Contractor proprietary data omitted.
              2
                For consistent comparisons, we calculated the Air Force total price by multiplying the annual demand quantity
                and the Air Force contract price that corresponded to the quantity of the previous contract.


           Purchased Parts (Vendor Quotes). The cost data provided by Hamilton
           Sundstrand for the 21 purchased parts consisted primarily of recent vendor
           quotes. DoD had purchased the majority of these items in recent years but the
           vendor quotes were not compared to previous Hamilton Sundstrand purchase
           order prices to identify economic order quantities. For example, the Air Force
           negotiated a unit price of $628.39 for an electrical rotating end bell (NSN 6115-
           00-474-0736) with an annual demand quantity (ADQ) of 42 for an annual price of
           $26,392. However, the vendor quote (cost data) used to support the initial price
           shows an unburdened unit price of $ 11       with only one quantity range of 1–30
           and the Defense Contract Audit Agency (DCAA) recommended burdened unit
                           11
           price was $            . The DSCR cost analyst stated Hamilton Sundstrand was
           requested to provide an additional vendor quote for a quantity of 40 and the
           revised vendor quote of $ 11       supported the negotiated price. Table 6 shows
           the pricing information for this item.

                              Table 6. Pricing for an Electrical Rotating End Bell
                                      (NSN 6115-00-474-0736) – ADQ 42
                                     Source                        Date              Quantity           Unit Price
                                         1                                                                  2
                     Vendor Quote                              11/14/2003          Range 1–30           $
                                                                                                            2
                     DCAA Recommended Price                       3/1/2004         Range 1–32
                     Hamilton Sundstrand
                                                                                                            2
                     Purchase Order                              2/24/2004               48
                                                                                                            2
                     Procurement History                         1/30/2004               48
                     Revised Vendor Quote1                                               40                 2


                     Air Force Contract                           3/1/2005         Range 1–32               628.39
                     1
                         Vendor Quotes do not include Hamilton Sundstrand profit and burden.
                     2
                         Contractor proprietary data omitted.




11
     Contractor proprietary data omitted.



                                                                  39
           Figure 3 shows a picture of the Electrical Rotating End Bell.




           Figure 3. Electrical Rotating End Bell Supplied by Hamilton Sundstrand

           Hamilton Sundstrand provided a vendor quote for an electrical winding wedge
           (NSN 6150-01-503-6636) with a quantity range of 1–35 at a unit price of $ 12
           and DCAA provided a recommended burden unit price of $ 12 . However, the
           Air Force negotiating team used price analysis to establish the negotiated unit
           price of $121.98, totaling an annual price of $50,256 based on an ADQ of 412.
           Table 7 shows the pricing information for this item.

                               Table 7. Pricing for an Electrical Winding Wedge
                                      (NSN 6150-01-503-6636) - ADQ 412
                                   Source                        Date              Quantity    Unit Price
                   Vendor Quote1                             11/21/2003          Range 1–35     $   2

                                                                                                     2
                   DCAA Recommended Price                       3/1/2004         Range 1–35
                   Procurement History                         1/16/2004                300         118.87
                   Air Force Contract                           3/1/2005           Range 1–8        121.98
                   1
                       Vendor Quote does not include Hamilton Sundstrand profit and burden.
                   2
                       Contractor proprietary data omitted.


           We reviewed the pricing for two additional items outside the cost-based parts
           selected for review because of requests by Air Force or DLA officials. During
           price negotiations, the contracting officials did not review the specific vendor
           quote for insulation sleeves (NSN 5970-01-505-8103) used on the T-38 aircraft

12
     Contractor proprietary data omitted.



                                                                40
           and relied on the agreed-upon pricing methodology to establish a contract price of
           $85.02 based on the contract ADQ of one. After our request, the Air Force
           contracting officer obtained the vendor quote from Hamilton Sundstrand. To
           support this price, Hamilton Sundstrand provided a vendor quote showing a unit
           price of $ 13      each based on the contract ADQ of one. However, the ADQ
           used to price the item is not accurate and Hamilton Sundstrand failed to provide
           economic order quantities to help obtain a reasonable price. In December 2004,
           the Air Force purchased 44 insulation sleeves at a unit price of $8.51 on contract
           F34601-02-G-0004. The negotiated contract unit price of $85.02 is 899.1 percent
           more than the most recent procurement. In addition, DLA data shows the
           historical ADQ for the item is 22 and through March 2006, 168 sleeves have been
           purchased under the strategic sourcing commercial contract. Based on a
           comparison with the previous unit price, we calculated that DLA paid at least
           $12,870 more than necessary for the 168 insulation sleeves purchased under the
           commercial contract. Clearly, significantly better pricing could have been
           negotiated for this item if more economical quantity ranges were quoted. Table 8
           shows the pricing of an insulation sleeve used on the T-38 aircraft.

                                           Table 8. Pricing for Insulation Sleeve
                                            (NSN 5970-01-505-8103) – ADQ 22
                     Source                         Date                  Quantity                 Unit Price   Total Price
             Vendor Quote1                         12/23/2003                1                      $ 2
             Procurement History                    12/3/2004               44                          8.51      $     374
             Air Force Contract                      3/1/2005            Range 1–3                    85.02
             Purchases on Contract                                          168                       85.123          14,300
             1
               Vendor Quote does not include Hamilton Sundstrand profit and burden.
             2
               Contractor proprietary data omitted.
             3
               Weighted average unit price. The contract unit price was escalated to $85.13 in 2006.


           Figure 4 shows a picture of the Insulation Sleeve (NSN 5970-01-505-8103).




           Figure 4. Insulation Sleeve for the T-38 Aircraft Supplied by
            Hamilton Sundstrand

13
     Contractor proprietary data omitted.



                                                                 41
           In addition, the contracting officials also negotiated the contract unit price of
           $5,203.68 for the T-38 generator housing (NSN 6150-01-503-6756) based on the
           pricing methodology and did not review the actual vendor quote during price
           negotiations. Again, the Air Force contracting officer obtained the vendor quote
           from Hamilton Sundstrand after our request. Hamilton Sundstrand again
           provided a vendor quote for a quantity of one with the $ 14 unit price based on
           the contract ADQ to support the contract price and failed to provide any
           economical quantity ranges. Because of the uneconomical price, the Air Force
           engineer contacted a local manufacturer and stated that the item can be purchased
           from the local manufacturer for about $300 each. The Air Force is pursuing the
           breakout of this item. Figure 5 shows the housing produced by the local
           manufacturer.




           Figure 5. Housing for the T-38 Generator

           Economic Order Quantities. The statutory requirement for procuring items in
           economic order quantities is 10 U.S.C. 2384a, “Supplies: economic order
           quantities.” Specifically, the requirement states:
                    (a)(1) An agency referred to in section 2303 (a) of this title shall
                    procure supplies in such quantity as (A) will result in total cost and unit
                    cost most advantageous to the United States, where practicable, and (B)
                    does not exceed the quantity reasonably expected to be required by the
                    agency.

                             (2) The Secretary of Defense shall take paragraph (1) into
                    account in approving rates of obligation of appropriations under
                    section 2204 of this title.


14
     Contractor proprietary data omitted.



                                                       42
                    (b) Each solicitation for a contract for supplies shall, if practicable,
                    include a provision inviting each offeror responding to the solicitation
                    to state an opinion on whether the quantity of the supplies proposed to
                    be procured is economically advantageous to the United States and, if
                    applicable, to recommend a quantity or quantities which would be
                    more economically advantageous to the United States. Each such
                    recommendation shall include a quotation of the total price and the unit
                    price for supplies procured in each recommended quantity.

           In order to comply with the statute, the Air Force and DLA need to require that
           Hamilton Sundstrand obtain vendor quotes with economical order quantities to
           establish part prices. The Air Force needs to request that DCMA review
           negotiated Phase 1 prices for purchase parts to determine the cost realism for all
           vendor quotes that did not have economic order quantities.

           Manufactured Parts – Other Locations. Hamilton Sundstrand provided
           “estimated cost information” for four parts in our review that were manufactured
           at locations other than Puerto Rico. Two of these parts experienced 15
           significant demand changes that could affect the reasonableness of negotiated
           contract prices, while another part apparently did not use cost information to
           negotiate the contract price.

           A wedge holding (NSN 6115-01-145-3815) had an ADQ of 3,030 and a
           negotiated unit price of $42.86 for an annual price of $129,866. The cost
           information supported the negotiated price. 15 . The Air Force should request
           DCMA review this item and adjust contract prices accordingly. The wedge
           holding is pictured in Appendix C figure C-1.c.3.

           The accessory drive gearbox housing for the F-16 turbine engine (NSN 2835-01-
           208-4430) had an ADQ of four and a negotiated unit price of $44,136.20 for an
           annual price of $176,545. The labor standards were reviewed by DCMA who
           recommended changes that lowered the price by about $ 15 each; the cost
           information was used to support the negotiated price. However, the
           manufacturing cost standards appear to be questionable because prior purchase
           quantities were significantly lower than the Air Force planned purchase quantity.
           The last purchase before the strategic sourcing contract occurred in January 1999,
           when the Air Force purchased four gearboxes at a unit price of $37,936.27,
           totaling $151,745. The largest quantity purchased since 1982, is eight. As a
           result, the Hamilton Sundstrand cost standard will be based on low quantities and
           not include any manufacturing efficiencies. However, the Air Force is planning
           to purchase 88 gearboxes over the next 3 years, totaling almost $4 million. Given
           the significant dollar value, the Air Force needs to request that DCMA re-visit the
           contractor “estimated cost information” in the near future and adjust the contract
           price if necessary.




15
     Contractor proprietary data omitted.



                                                      43
           Figure 6 shows the accessory drive gearbox used on the F-16 aircraft.




           Figure 6. The F-16 Aircraft Accessory Drive Gearbox in Repair

           A seal housing assembly (NSN 2835-01-051-6443) had an ADQ of two and a
           negotiated unit price of $113.21 for an annual price of $226. The cost
           information provided supported a unit price of $ 16 . The Air Force had
           procured 14 assemblies in December 2004 also at a price of $113.21, so it appears
           the cost information was not used to establish the contract price.

           A spur gear (NSN 3020-01-059-5171) had an ADQ of 46 and a negotiated unit
           price of $401.23 for an annual price of $18,457. The labor standards were also
           reviewed by DCMA; the cost information generally supported the negotiated
           price.

           Manufactured Parts – Puerto Rico. Hamilton Sundstrand provided cost
           information for parts manufactured in Puerto Rico, but several of the items had
           significant gaps between purchases. For example, the alternating current
           generator (NSN 6115-01-149-7588) used on the B-1B aircraft had not been
           purchased since May 1989, when the Air Force purchased 41 generators at a unit
           price of $16,310, totaling $668,710. Using cost information, the Air Force
                                                                     16
           contracting officer negotiated a contract unit price of $          based an ADQ
                               16
           of 11, totaling $        .




16
     Contractor proprietary data omitted.



                                              44
           Figure 7 shows the alternating current generator used on the B-1B aircraft.




           Figure 7. B-1B Aircraft Alternating Current Generator

           Similarly, another alternating current generator (NSN 6115-01-104-8632) used on
           the E-3, E-8, and KC-135 aircraft had not been purchased since April 1991, when
           the Air Force purchased 11 at a unit price of $12,850, totaling $141,350. Using
           cost information, the Air Force contracting officer negotiated a contract unit price
           of $30,857.14 based on an annual demand value of seven, totaling $216,000.
           There were also several items that had been recently purchased in 2004–2005,
           months prior to the Air Force commercial contract award, which also had
           experienced significant gaps in purchases before the most recent award.

           Hamilton Sundstrand provided “estimated cost information” and DCMA
           evaluated this information for 2 of the 11 parts manufactured in Puerto Rico that
           we reviewed. For example, an armature exciter (NSN 6115-01-080-8643) used
           on the A-10 aircraft had an ADQ of 107 and a negotiated unit price of $2,313.64
           for an annual price of $247,559. The proposed labor standards were reviewed by
           DCMA and the part was manufactured entirely in Puerto Rico. The estimated
           cost information supported the negotiated contract price.

           Similarly, an alternating current generator (NSN 6115-01-246-5622) used on the
           F-16 aircraft had an ADQ of four and a negotiated unit price of $22,928.41 for an
           annual price of $91,714. The proposed labor standards were reviewed by DCMA
                                                                                   17
           who recommended changes that reduced the unit price by about $
           based on order quantities. The estimated cost information supported the
           negotiated contract price. For more information on pricing issues related to
           generators and generator components see Appendix C.

           DCAA and DCMA Audit Support. The Air Force contracting officer requested
           that DCAA review cost data for 17 manufactured items with a total annual price
           of about $2.2 million. DCAA then requested that DCMA review the labor

17
     Contractor proprietary data omitted.



                                                45
                          standards for the items. We found that one item with an annual price of $401,478
                          was switched to price-based after the cost data was submitted and that 10 of the
                          items valued at about $1.3 million had no historical or forecasted demand. The
                          remaining six items had an annual price of $555,687. DCMA verified that the
                          labor standards in the Hamilton Sundstrand accounting system matched the labor
                          proposed in cost data provided to contracting officers and DCAA verified that the
                          material quotes matched the standards. The DCMA industrial engineer adjusted
                          the proposed labor hours for 13 of the 17 items (76.5 percent) and DCAA
                          recommended changes to material costs for the majority of items. Subsequently,
                          DCAA recomputed the prices based on the DCMA recommended labor hours and
                          more current forward pricing rates.

                          In the March 15, 2004, report, the DCMA industrial engineer stated that the
                          Puerto Rico manufacturing facilities had changed to standard costs recently and
                          that an in-depth review of the sites had not been performed to ensure the accuracy
                          of the standards being used. We compared transition standards in the 2003–2004
                          timeframe and found significant fluctuations in the standards for 10 items
                          manufactured in Puerto Rico. Out of the 10 items reviewed, 7 did not have
                          historical demand. Figure 8 shows the percent change in cost standards for the
                          10 items.


                   100
                    90
                    80
                    70
                    60
                    50
                    40
                    30
                    20
Percent Variance




                    10
                      0
                    (10)
                    (20)
                    (30)
                    (40)
                    (50)
                    (60)
                    (70)
                    (80)
                    (90)
                   (100)                                 Demand            No Demand

                                                                   Items


                          Figure 8. Percent Change in Puerto Rico Manufacturing Standards From
                          2003–2004 for 10 items


                                                              46
     Given the significant fluctuations in the standard costs for items manufactured in
     Puerto Rico shown in Figure 8, the Air Force should request that DCMA
     reevaluate cost data for these items in a few years once it has reviewed the
     standards and more current information is available. In March 2006, DCMA
     began a review of the Puerto Rico cost standards.

     Basing long-term contract prices on newly established standards that have not
     been audited and items that do not have historical demand is higher risk because
     the initial cost standards can fluctuate significantly. Cost data is most effective
     when the standards are based on recent and consistent manufacturing history. In
     addition, DCAA and DCMA audit resources should be focused on high dollar and
     frequent demand items. The Air Force needs to request that DCMA review
     contractor “estimated cost information” for items manufactured in Puerto Rico
     after manufacturing standards have been audited and adjust contract prices if
     necessary.

     No Historical or Forecasted Demand. As shown previously in Table 3, the Air
     Force negotiating team negotiated prices for 549 items valued at $3.3 million that
     had basically no historical or forecasted demand. Cost data were used to support
     prices for 478 of the items valued at $2.3 million. According to DLA personnel,
     Ogden ALC and Hamilton Sundstrand engineers provided input to the demand
     development for the 549 items. The contracting officers then relied on this
     demand and included the items in Phase 1 of the strategic sourcing contract. Our
     review of procurement histories showed that the large majority of the 549 items
     had not been purchased previously by DoD. Based on the acquisition advice
     codes, these items will not be procured until there is a backorder or actual
     requirement. Through January 2006, only 11 of the 549 items had actually been
     purchased under the strategic sourcing contract. We question the inclusion of
     these items in Phase 1 of the contract when no forecasted or historical demand
     exists.

     Also, the reliability of cost data for items that have never been purchased is
     questionable and not a good basis for establishing prices on a long-term contract.
     In addition, expending both time and effort negotiating prices for these parts that
     had no historical demand is a questionable use of both DoD and contractor
     resources. Contracting officers should purchase these items from Hamilton
     Sundstrand on an as-needed basis until forecasted demand levels can be
     established. The Air Force needs to discontinue pricing items with no historical
     or forecasted demand.


Price Analysis
     The Air Force negotiating team used price analysis of previous Government
     prices to support prices for 65.6 percent of the annual dollar value for items with
     historical and forecasted demand as required by the negotiated pricing strategy.
     However, a significant number of the previous noncompetitive procurements had
     been determined not to be fair and reasonable. Price analysis of previous
     Government prices is only effective when the validity of the comparison price can
     be established.


                                          47
Previous Government Prices. The Air Force negotiating team relied on prices
that were previously determined to be unreasonable as a basis for establishing the
strategic sourcing contract prices. Out of 109 DLA managed items that had a
total annual price of about $12.0 million, we reviewed 83 items with an annual
price of $10.8 million. After reviewing procurement histories, a previous
corporate contract, and price reasonableness codes for the 83 items, we
determined that 36 items (43 percent) with an annual price of about $6.3 million
or 57.9 percent of the annual demand dollars relied on prior Government prices
that had been coded either “could not determine reasonable” or “determined
unreasonable” by DLA contracting officers.

For example, in November 1997, the DLA buyer determined that the price for an
armature generator (NSN 6115-00-856-8519) could not be determined to be fair
and reasonable. Subsequent buys were then determined either unreasonable or
could not be determined reasonable as the price increased. However, the Air
Force negotiating team used the November 2002 contract that had been
determined unreasonable to negotiate the item’s price on the strategic sourcing
contract. As a result, the Air Force-negotiated price was 103.8 percent higher
than the 1997 price that could not be determined reasonable. Table 9 shows the
price reasonableness determinations made for the armature generator since 1997.

              Table 9. Price Reasonableness Determinations for the
                 Armature Generator (NSN 6115-00-856-8519)
                                                                                Percent
       Date        Unit Price            DLA Buyer Code-Definition             Increase
     11/17/1997    $ 996.16        BV-Could Not Determine Reasonable
       3/18/1998    1,286.55       BU-Determined Unreasonable                      29.2
     11/28/2001     1,691.00       BV-Could Not Determine Reasonable               69.8

       11/4/2002    1,946.56       BU-Determined Unreasonable                      95.4
        3/1/2005    2,030.34       Air Force Strategic Sourcing Contract          103.8



Validity of Comparison Price. FAR 15.404-1(b)(2)(ii), requires that
contracting officers validate the comparison and reasonableness of the prior
Government price when performing price analysis. Specifically, the Regulation
states:
       Comparison of previously proposed prices and previous Government
       and commercial contract prices with current proposed prices for the
       same or similar items, if both the validity of the comparison and the
       reasonableness of the previous price(s) can be established.
       [emphasis added].

Reasonableness of Negotiated Prices. Price analysis did not provide the Air
Force negotiating team with sufficient information to support price
reasonableness for noncompetitive spare parts on the strategic sourcing contract.
We calculated that negotiated prices for 93 price-based items on Phase 1 of the
strategic sourcing contract with an annual price of more than $7.5 million were


                                        48
$1.7 million or 28.4 percent higher than fair and reasonable prices calculated by
inflating pre-FASA contract prices using the Producer Price Index for Aircraft
Engines and Parts. See Appendix A for more discussion on the specific details of
this analysis. Table 10 shows a summary for 93 parts sorted by percent increase.

          Table 10. Price Analysis of Air Force Contract Price-Based Items
                                              Percent                                    Total Price
      Range of Percent
         Increase                                     Total             Previous           Air Force          Percent
        (Decrease)            Items      Items        Price             Contract1          Contract2         Difference
           100+                   19        20.4        24.8           $ 751,207          $1,873,027               149.3
           50–99                  12        12.9        22.3             1,024,522          1,683,308               64.3
           0–49                   32        34.4        29.4             1,830,987          2,219,770               21.2
          (1–68)                  30        32.3        23.4             2,268,597          1,769,085              (22.0)

           Total                  93                                   $5,875,3123        $7,545,1913               28.4
  1
    The previous contract prices were inflated based on the Bureau of Labor Statistics Producer Price Index for Aircraft
    Engines and Parts midpoint factors.
  2
    For consistent comparisons, we calculated the Air Force total price by multiplying the annual demand quantity and
    the Air Force contract price that corresponded to the quantity of the previous contract.
  3
    Slight rounding inconsistencies exist due to auditor calculations based on two decimal places.


For comparison purposes, we also used a strategic sourcing contract between
DLA and Honeywell for noncompetitive spare parts where cost-based pricing is
used. The DLA/Honeywell strategic sourcing agreement used FAR Part 15
contracts with some commercial clauses and there were no commercial item
determinations. High dollar-value parts were priced using cost analysis and low
dollar-value parts were priced using price analysis. Generally, 20 percent of the
items represent 80 percent of the dollars while the remaining 80 percent of the
items represent only 20 percent of the dollars. Cost analysis was focused on the
20 percent of the items that represented 80 percent of the dollars, although cost
analysis could be performed on any item.




                                                     49
We calculated that negotiated prices for 432 items on the strategic sourcing
contract with an annual price of about $53.3 million were only $703,926 or
1.3 percent higher than pre-FASA prices inflated using the Producer Price Index
for Aircraft Engines and Parts. Further, prices for 47.2 percent of the items and
44.1 percent of the dollars had actually decreased when adjusted for inflation
(Table 11).

      Table 11. Price Analysis of DLA-Honeywell Contract Cost-Based Items
                                             Percent                                     Total Price
     Range of Percent
        Increase                                     Total             Previous             DLA               Percent
       (Decrease)            Items      Items        Price             Contract1           Contract2         Difference
          100+                   60        13.9        15.8          $ 3,121,188         $ 8,416,740               169.7
          50–99                  51        11.8        10.2              3,115,855           5,419,909              73.9
          0–49                 117         27.1        29.9            13,137,251          15,914,470               21.1
         (1–68)                204         47.2        44.1            33,198,045          23,525,147              (29.1)

          Total                432                                   $52,572,339         $53,276,266                  1.3
 1
   The previous contract prices were inflated based on the Bureau of Labor Statistics Producer Price Index for Aircraft
   Engines and Parts midpoint factors.
 2
   For consistent comparisons, we calculated the DLA total price by multiplying the annual demand quantity and the
   DLA contract price that corresponded to the quantity of the previous contract.


The DLA/Honeywell strategic sourcing contract has over 10,000 items with
negotiated prices and has resulted in significant reductions in workload for DLA
and Honeywell, reduced administrative lead time, less inventory, and lower
prices.

The Air Force strategic sourcing commercial contract showed price increases of
28.4 percent when price analysis was used while the DLA strategic sourcing
contract showed price increases of only 1.3 percent when cost analysis was used
to establish prices. The 28.4 percent increase, if reasonable, needs to be
supported by cost analysis.

San Diego Items. Our review included 11 items supplied by Hamilton
Sundstrand’s San Diego, California, facility. The 11 items had an annual price of
more than $4.7 million or about 24 percent of the total contract demand of
$19.6 million (Table 1). The contracting officials used price analysis to establish
prices for 7 of the 11 items and used cost information to establish prices for the
other 4 items.




                                                      50
           Table 12 identifies the items we reviewed by Air Force negotiating team pricing
           method.

                                      Table 12. Pricing of San Diego Items
                                                                          Air Force Contract Price
                                        NSN                     ADQ         Unit          Total
                             Price-Based
                             1560-01-109-2530                    640      $      76.83   $   49,171
                             2835-00-963-1173                    202            241.73       48,829
                             2835-01-208-7789                    421          2,357.50      992,508
                             2835-01-288-1642                    448          1,258.70      563,898
                             2835-01-329-2486                    164          2,967.38      486,650
                             2835-01-459-6002                     97          4,138.95      401,478
                             2915-01-157-3703                    987            187.10      184,668
                               Subtotal Price-Based                                      $2,727,202

                             Cost-Based
                             2835-01-056-8593                     37      $ 1,933.44     $   71,537
                             2835-01-310-0117                    316        3,598.00      1,136,968
                             2835-01-467-7434                    247        3,181.00        785,707
                             2910-01-135-5681                      1       12,210.00         12,210
                               Subtotal Cost-Based                                       $2,006,422

                                 Total                                                   $4,733,624


           We performed cost analysis on 3 parts (2 price-based and 1 cost-based) with an
           annual price of about $2.5 million or 53.5 percent of the annual price for the
           11 San Diego items. Table 13 shows the negotiated prices for the two price-based
                           18
           items were           percent higher than fair and reasonable while the negotiated
           price for the cost-based item was in line with our cost analysis.

                               Table 13. Comparison of Contract and Cost-Based Prices
                                                     Air Force Contract             Cost-Based Price        Difference
                    NSN          ADQ                 Unit         Total            Unit*        Total*   Amount*    Percent*
             Price-Based
             2835-01-208-7789     421               $2,357.50   $ 992,508
             2835-01-459-6002      97                4,138.95      401,478
               Total Price-Based                                $1,393,986

             Cost-Based
             2835-01-310-0117           316         $3,598.00   $1,136,968
             *
             Contractor proprietary data omitted.




18
     Contractor proprietary data omitted.



                                                                51
                   Price-Based. The Air Force negotiated a unit price for the shaft assembly
           (NSN 2835-01-208-7789) of $2,357.50. The contracting officer used price
           analysis of the prior Government prices to establish the contract price for this
           item. In November 2003, DSCR purchased 120 shaft assemblies at a unit price of
           $3,045.69, totaling $365,483, from Hamilton Sundstrand’s exclusive distributor,
           AAR Defense Systems. According to the DSCR cost analyst, AAR applies about
           a 19 percent management fee to the unit price and this was removed when
           negotiating prices. Price analysis shows a seven percent reduction in the
           negotiated price. However, using cost data obtained from a previous audit, we
           calculated that the fair and reasonable unit price should have been $ 19      versus
           the negotiated price of $2,357.50 or a difference of 19 percent. Table 14
           shows the comparison.

                     Table 14. Comparison of Air Force Pricing Method and Cost Data
                              for the Shaft Assembly (NSN 2835-01-208-7789)
                                            Air Force Contract        Comparison Price           Difference
             Method             ADQ         Unit         Total       Unit         Total     Amount         Percent
             Price-Based         421       $2,357.50    $992,508   $2,538.08   $1,068,530   ($ 76,022)        (7.1)
                                                                      *            *             *            *
             Cost Data           421        2,357.50     992,508
             *
             Contractor proprietary data omitted.


           Figure 9 shows the shaft assembly used on the F-16 aircraft.




           Figure 9. Shaft Assembly Supplied by Hamilton Sundstrand




19
     Contractor proprietary data omitted.



                                                           52
           For a compressor wheel (NSN 2835-01-459-6002), Hamilton Sundstrand initially
           proposed the pricing based on cost information because the part number assigned
           to the item (162690-1) did not show any Government sales within the last 3 years.
           However, Hamilton Sundstrand later stated that the manufacturer part number for
           this item changed (4502902) because of a “material change” and the new part
           number had recent previous Government sales on which to develop a price-based
           price through price analysis. 20 . Price analysis shows a 4.1 percent reduction in
           the negotiated price. However, using the cost data, we calculated that the fair and
           reasonable unit price should have been $ 20        versus the negotiated price of
           $4,315.78 or a difference of 20      percent. Table 15 shows the comparison.

                        Table 15. Comparison of Air Force Pricing Method and Cost Data
                               for the Compressor Wheel (NSN 2835-01-459-6002)
                                             Air Force Contract                Comparison Price                     Difference
                                 ADQ          Unit       Total                 Unit        Total                Amount       Percent
             Price-Based           97       $4,138.95   $401,478             $4,315.781  $418,631              ($ 17,153)       (4.1)
                                                                                   2                2                2               2
             Cost Data             97        4,138.95    401,478
             1
               The most recent procurement was purchased from AAR, Hamilton Sundstrand’s exclusive distributor, who applies a [contractor
             proprietary data omitted] percent management fee to the price. We removed this management fee from the unit price in the
             comparison.
             2
               Contractor proprietary data omitted.



           Figure 10 shows the compressor wheel used on the F-16 aircraft.




           Figure 10. Compressor Wheel Supplied by Hamilton Sundstrand


20
     Contractor proprietary data omitted.



                                                               53
Cost-Based. The negotiated unit price of $3,598 for the turbine engine rotor
(NSN 2835-01-310-0117), based on recently supplied cost data, was basically in
line with our cost analysis of cost data obtained during a previous audit. Table 16
shows the comparison of prices developed using the Air Force pricing method
and cost data from a previous audit.

                           Table 16. Comparison of Cost-Based Pricing for
                           Turbine Engine Rotor (NSN 2835-01-310-0117)
                                     Air Force Contract       OIG Previous Audit      Difference
                       ADQ          Unit          Total       Unit         Total   Amount Percent
     Cost-Based         316       $3,598.00     $1,136,968   $ *        $ *        $ *          *
 *
 Contractor proprietary data omitted.


Figure 11 shows the turbine engine rotor that is part of the Jet Fuel Starter used on
the F-16 aircraft.




Figure 11. Rotor for the F-16 Aircraft Turbine Engine




                                               54
           Similarly, by performing cost analysis, the Air Force negotiating team reduced the
           unit price of the air inlet housing assembly (NSN 2835-01-056-8593) used on the
           F-16 aircraft to $1,933.44 (about 50 percent) from the previous price paid. In
           January 2004, 93 housing assemblies were purchased from Hamilton
           Sundstrand’s exclusive distributor (AAR Defense Systems) at a unit price of
           $4,625.50. After removing the 21 percent burden applied by the distributor, we
           calculated the unit price paid to Hamilton Sundstrand was $ 21 . Table 17
           shows the results of the cost analysis performed.

                               Table 17. Results of Air Force Cost Analysis for Air Inlet
                                      Housing Assembly (NSN 2835-01-056-8593)
                                                Air Force Contract      Comparison Price      Difference
                                   ADQ           Unit        Total      Unit       Total   Amount     Percent
                                                                          *
             Cost-Based              37        $1,933.44    $71,537   $          $ *       ($ * )        *

             1
                 Contractor proprietary data omitted.


           Figure 12 shows the air inlet housing assembly used on the F-16 aircraft.




           Figure 12. F-16 Aircraft Air Inlet Housing Assembly

           As shown by the examples discussed above, performing cost analysis is the most
           effective means to determine price reasonableness.




21
     Contractor proprietary data omitted.



                                                              55
Potential Total Contract Impact. If the strategic sourcing contract used price-
based prices for between 60–80 percent of the dollars and the unexplained price
increase is roughly 30 percent, the excessive profit paid for the 9-year
$860 million contract would range from approximately $155 million to
$206 million. Table 18 provides an illustration of the potential impact of
overpricing based on the percent of the unexplained increase and the percentage
of the contract that uses price analysis. The excessive profit paid for Phase 1 of
the contract, which has a 9-year annual demand of about $147 million, would
range from approximately $26.5 million to $35.3 million.

      Table 18. Potential Overpayment (Risk) Based on Contract Value
       Unexplained               Percent of $860 Million Contract Value ($ millions)
      Percent Increase           20            40          60            80          100
            100                 $172          $344        $516         $688          $860
            90                   155           310         464           619          774
            80                   138           275         413           550          688
            70                   120           241         361           482          602
            60                   103           206         310           413          516
            50                    86           172         258           344          430
            40                    69           138         206           275          344
            30                    52           103         155           206          258
            20                    34            69         103           138          172
            10                    17            34          52            69           86
             0                      0             0           0             0            0

The Air Force also needs to issue guidance that discontinues the use of price
analysis to determine price reasonableness unless the validity of the comparison
can be established.

Congressional Guidance. Due to its concern about commercial item waivers to
TINA, Congress included new provisions in the National Defense Authorization
Act for Fiscal Year 2003 for cost accounting standards waivers and annual
reporting requirements for DoD in cases where a waiver or commercial item
exception was granted for contracts valued over $15 million. Specifically,
Section 817 of the Act, “GRANTS OF EXCEPTIONS TO COST OR PRICING
DATA CERTIFICATION REQUIREMENTS AND WAIVERS OF COST
ACCOUNTING STANDARDS,” requires:
       (b) DETERMINATION REQUIRED FOR EXCEPTIONAL CASE
       EXCEPTION OR WAIVER.—The guidance shall, at a minimum,
       include a limitation that a grant of an exceptional case exception or
       waiver is appropriate with respect to a contract, subcontract, or (in the
       case of submission of certified cost and pricing data) modification only
       upon a determination that--

                (1) the property or services cannot reasonably be obtained
       under the contract, subcontract, or modification, as the case may be,
       without the grant of the exception or waiver;




                                         56
                    (2) the price can be determined to be fair and reasonable
           without the submission of certified cost and pricing data or the
           application of cost accounting standards, as the case may be; and

                   (3) there are demonstrated benefits to granting the exception
           or waiver.

           (d) ANNUAL REPORT ON BOTH COMMERCIAL ITEM AND
           EXCEPTIONAL CASE EXCEPTIONS AND WAIVERS WITH
           PRICE OR VALUE GREATER THAN $15,000,000—(1) The
           Secretary of Defense shall transmit to the congressional defense
           committees promptly after the end of each fiscal year a report on
           commercial item exceptions, and exceptional case exceptions and
           waivers, described in paragraph (2) that were granted during that
           fiscal year.

           (2) The report for a fiscal year shall include--

           (A) with respect to any commercial item exception granted in the
           case of a contract, subcontract, or contract or subcontract
           modification that is expected to have a price of $15,000,000 or
           more, an explanation of the basis for the determination that the
           products or services to be purchased are commercial items,
           including an identification of the specific steps taken to ensure
           price reasonableness; and

           (B) with respect to any exceptional case exception or waiver granted in
           the case of a contract or subcontract that is expected to have a value of
           $15,000,000 or more, an explanation of the basis for the determination
           described in subsection (b), including an identification of the specific
           steps taken to ensure that the price was fair and reasonable. [emphasis
           added]

    The Air Force has not yet reported the strategic sourcing contract as required by
    the FY 2003 National Defense Authorization Act; however, in our opinion the
    contract does not have adequate support for the commercial items exception nor
    does the pricing strategy adequately support price reasonableness determinations.
    The Assistant Secretary of the Air Force needs to report the required information
    to the Secretary of Defense for all FAR Part 12 commercial contracts.


Conclusion
    While the Defense weapon systems spare parts procured on the Air Force
    strategic sourcing FAR Part 12 commercial contract with Hamilton Sundstrand
    may meet the liberal statutory commercial item definition, the Air Force did not
    use commercial marketplace pricing to price any of the 1,011 Phase 1 items.
    Price analysis of previous Government prices was used to price the majority of
    the items, which was not effective to determine price reasonableness for
    noncompetitive spare parts.



                                               57
Management Comments on the Finding and Audit Response
    Management Comments. The Military Deputy, Office of the Assistant
    Secretary of the Air Force (Acquisition) acknowledged that 24 items were
    incorrectly priced under the Phase 1 contract award, and have taken appropriate
    management action to correct the errors. The Military Deputy also stated that the
    vast majority of the 1,011 items being procured were priced accurately. Our
    estimates for Air Force savings over the 9-year life of this contract exceed $2.8
    million, with an additional $18.9 million savings when Defense Logistics Agency
    (DLA) line items are included.

    Audit Response. We agree that the 24 items were incorrectly priced under Phase
    1 of the contract and that the Air Force needs to obtain cost information from
    Hamilton Sundstrand to determine fair and reasonable prices for these items. This
    information will indicate the effectiveness of the Air Force pricing efforts. We
    disagree, as shown in the report, that the “vast majority of the 1,011 items were
    priced accurately.” The Air Force pricing strategy relied primarily on the price
    analysis of questionable previous Government prices and failed to adequately use
    the commercial marketplace or sufficient cost data when negotiating prices.

    Further, the Air Force calculated savings show the difference between the initial
    proposed prices and negotiated contract prices. While negotiations were
    successful at achieving lower prices than proposed, the claimed savings have no
    bearing on whether contract prices were fair and reasonable. The audit report
    addressed the reasonableness of the negotiated contract prices.


Recommendations, Management Comments, and Audit
  Response
    On September 28, 2006, the Deputy Assistant Secretary (Contracting), Assistant
    Secretary (Acquisition) provided technical corrections to the initial Air Force
    response. Those corrections were incorporated in management comments where
    appropriate.

    B.1. We recommend that the Assistant Secretary of the Air Force
    (Acquisition):

          a. Initiate action to develop alternate sources for noncompetitive
    Hamilton Sundstrand items if the contractor fails to satisfy requirements for
    information other than cost or pricing data described in Recommendation
    B.2.

    Management Comments. The Military Deputy, Office of the Assistant
    Secretary of the Air Force (Acquisition) concurred with the recommendation.
    The Military Deputy commented that if Hamilton Sundstrand fails to provide
    adequate information necessary for the contracting officer to make a fair and
    reasonable price determination, the Assistant Secretary of the Air Force



                                        58
(Acquisition) will request Ogden Air Logistics Center to initiate actions to
develop alternate sources for the necessary items.

Audit Response. We consider the Air Force comments responsive.

       b. Report the basis of commercial items determinations and steps
taken to ensure price reasonableness for all Federal Acquisition Regulation
Part 12 commercial contracts with an estimated value of $15 million or more
annually to the Secretary of Defense as required by the National Defense
Authorization Act of Fiscal Year 2003.

Management Comments. In the technical corrections, the Deputy Assistant
Secretary (Contracting) concurred with the recommendation and stated that the
Air Force fully intends to comply with existing commercial contract reporting
requirements for the Hamilton Sundstrand contract.

Audit Response. We consider the Air Force comments responsive.

       c. Provide assistance to the contracting officer and the Director of
Contracting, Ogden Air Logistics Center, Hill Air Force Base, Utah, in
obtaining cost information for 24 price-based parts from Hamilton
Sundstrand.

Management Comments. The Military Deputy, Office of the Assistant
Secretary of the Air Force (Acquisition) concurred with the recommendation.
The Military Deputy commented that if the contracting officer and the Director of
Contracting, Ogden Air Logistics Center are unsuccessful in obtaining the
requested cost information, the Assistant Secretary of the Air Force (Acquisition)
will provide assistance as appropriate.

Audit Response. We consider the Air Force comments partially responsive. We
have received information that Hamilton Sundstrand has again refused to provide
the requested cost data for the 24 price-based parts to Ogden Air Logistics Center.
The Air Force has since requested Hamilton Sundstrand to review the “validity of
the basis of negotiations,” which does not meet the intent of the recommendation.
We do not believe the strategic sourcing initiative should proceed until the cost
data requested by the Air Force is obtained and reviewed by appropriate DoD
audit agencies. The Air Force needs to provide additional comments to the final
report as to whether the requested cost data has been obtained.

B.2. We recommend that the Commander, Ogden Air Logistics Center, Hill
Air Force Base, Utah, instruct the contracting officer for the strategic
sourcing commercial contract with Hamilton Sundstrand to terminate the
current pricing strategy and take the following actions:

Management Comments. The Military Deputy, Office of the Assistant
Secretary of the Air Force (Acquisition) concurred with the recommendation.
The Military Deputy commented that subsequent to the pricing of the Phase 1
items, the Director of Contracting, Ogden Air Logistics Center, instructed the
contracting officer not to utilize the existing pricing strategy for the pricing of the
Phase 2 and 3 items.


                                      59
Audit Response. We consider the Air Force comments partially responsive and
request that the Air Force provide an explanation of the pricing strategy used in
Phases 2 and 3 of the contract.

       a. Require submission of data other than certified cost or pricing
data from the contractor that, at a minimum, should include appropriate
information on the prices at which the same item or similar items have
previously been sold in the commercial market that is adequate for
evaluating the reasonableness of the price of the procurement.

Management Comments. In the technical corrections, the Deputy Assistant
Secretary (Contracting) partially concurred with the recommendation and stated
that the contracting officer is responsible for obtaining adequate information in
order to determine a fair and reasonable price. Accordingly in Phases 2 and 3,
Hamilton Sundstrand will be required to provide commercial market sales data
adequate for evaluating the reasonableness of the price where appropriate,
including data on sales for the same or similar items in quantities similar to Air
Force and Defense Logistics Agency demand quantity requirements. If the data is
not sufficient for determining the price to be fair and reasonable, then the
contracting officer will look at data available from other sources in an effort to
justify prices offered and verify that sufficient cost or price analysis was
performed on the previous price to determine prices fair and reasonable. If the
contracting officer cannot obtain adequate information from sources other than
the contractor, then the contracting officer will require the contractor to submit
information other than cost or pricing data including existing information on the
prices at which same or similar items may have been previously sold.

During Phase 1, when the contracting officer determined that adequate
information from sources other than the contractor was not available, Hamilton
Sundstrand provided past sales information where it existed. In those cases where
adequate sales data did not exist, Hamilton Sundstrand provided additional
information other than cost or pricing data to support their proposal.

Audit Response. We consider the Air Force comments partially responsive. The
procedures the Air Force described are the basic pricing procedures identified at
FAR 15.402, “Pricing Policy.” Finding A of the report, discussed how this
guidance has become muddled and disordered in regard to noncompetitive
commercial items. The USD(AT&L) has agreed to provide additional guidance
in this area.

The audit showed that the Air Force relied primarily on price analysis of previous
Government prices that had not been determined fair and reasonable by DLA and
on previous audits. As a result, there was not adequate information available
within the Government to effectively price the noncompetitive items. In addition,
the audit showed that there was not adequate information available from sources
other than the offeror and that the offeror did not have adequate commercial sales
to effectively or appropriately price the items. Further, Hamilton Sundstrand has
repeatedly refused to provide cost data to support price reasonableness when
requested. In DoD IG Report No. D-2004-064, “Acquisition of the Boeing KC-
767A Aerial Refueling Tanker,” March 29, 2004, the Air Force made similar
mistakes by not obtaining commercial market sales information or cost data from


                                    60
the offeror for the $23.5 billion program; as a result, we determined that the
pricing strategy used was high-risk and the price could be overstated by billions.
Therefore, we request the Air Force provide an explanation of how a commercial
pricing strategy can be effectively used to price the noncompetitive items in
Phases 2 and 3 of the contract.

     b. Incorporate Federal Acquisition Regulation 52-215.20(ii),
“Commercial Item Exception,” in the contract.

Management Comments. The Military Deputy, Office of the Assistant
Secretary of the Air Force (Acquisition) partially concurred with the
recommendation. The Military Deputy commented that in accordance with FAR
15.408(l), the contracting officer may insert the provision at 52.215-20 in
solicitations where it is reasonably expected that cost or pricing data or
information other than cost or pricing data may be required. The Military Deputy
commented that Alternate IV shall be considered if an exception to cost or pricing
data submission exists and submission of information other than cost or pricing
data will be required. The Military Deputy also commented that FAR 52.215-20
is a solicitation provision, not a contract provision. The Hamilton Sundstrand
solicitation did include the provision at FAR 52.215-20 and Alternate IV.
Additionally, any future solicitations associated with this contract will include the
provision at FAR 52.215-20 and Alternate IV as applicable.

Audit Response. We consider the Air Force comments nonresponsive. We
recognize that the solicitation included Alternate IV of the FAR 52.215-20
provision. The Air Force replaced the basic requirements of the exception
provision for obtaining cost or pricing data, which required “at a minimum,
information on prices at which the same item or similar items have been sold in
the commercial market that is adequate for evaluating the reasonableness of
price” with the high-risk Phase 1 pricing strategy. The Director of Contracting,
Ogden Air Logistics Center has instructed the contracting officer not to utilize
that pricing strategy for future phases of the contract and our audit report found
that the strategy was not effective in obtaining fair and reasonable prices.
Further, the 63 Phase 1 items priced under the “catalog” or commercial
marketplace scenario were not priced based on commercial market sales and
accounted for only 1.3 percent of the total Phase 1 annual contract value of
$19.6 million. As a result, the Air Force has no basis to grant a commercial item
exception to cost or pricing data for this contract. If the contractor does not have
sufficient commercial sales to support price reasonableness, the exception to cost
or pricing data should not be granted. The Air Force needs to describe the basis
for granting a commercial item exception to cost or pricing for Phase 2 and 3
items in its comments to the final report.

        c. Limit requests for information from the contractor on commercial
sales to quantities similar to DoD annual demand quantities.

Management Comments. In the technical corrections, the Deputy Assistant
Secretary (Contracting) concurred with the recommendation and stated that
commercial market sales information for the same or similar to items should be
obtained in quantities similar to DoD annual demand quantities to ensure a
suitable comparison for establishing prices.


                                     61
Audit Response. We consider the Air Force comments responsive.

       d. Make a determination that any “of a type” items meeting the
requirements in Recommendation B.2.a. are sufficiently similar to the
military item and any difference in price can be identified and justified.
Any significant difference in similarity or price should be supported by
cost analysis.

Management Comments. In the technical corrections, the Deputy Assistant
Secretary (Contracting) partially concurred with the recommendation and stated
the Air Force will assess “of a type” commercial items considered for Phases 2
and 3 of the contract and ensure adequate similarity to the military item. The Air
Force will also support any significant price difference between the military and
commercial “of a type” items in accordance with existing FAR provisions
prescribed for cost and price analysis. If commercial sales of the “of a type” item
are not sufficient to determine price reasonableness, information other that cost or
pricing data will be requested. Cost analysis will be conducted during pricing
efforts when other methods of supporting the pricing efforts are unsuccessful.

Audit Response. We consider the Air Force comments responsive.

      e. Make a determination as to whether commercial sales information
provided by the contractor is adequate to support a price reasonableness
determination.

Management Comments. The Military Deputy, Office of the Assistant
Secretary of the Air Force (Acquisition) concurred with the recommendation.
The Military Deputy commented that it is inherent in the contracting officer’s
price reasonableness determination that adequate information was obtained to
support the determination. If the contracting officer cannot obtain adequate
information from sources other than the offeror, the contracting officer must
require submission of information other than cost or pricing data from the offeror
that is adequate to determine a fair and reasonable price. This information must
include existing information on the prices at which the same or similar items have
been previously been sold. If sales data is inadequate or does not exist, the
contracting officer must request additional information other than cost or pricing
data. The Military Deputy also commented that by definition, if the contracting
officer has determined a price to be fair and reasonable and this determination is
based on sales data, then the sales data was adequate to support the determination.
The requirement is to ensure appropriate cost or pricing techniques are executed
to make sure the price is fair and reasonable. This is the process utilized in
pricing the instant Hamilton Sundstrand contract.

Audit Response. We consider the Air Force comments nonresponsive. The Air
Force failed to make a determination that commercial sales information was
adequate to support price reasonableness. As discussed in the report, the
commercial market sales data provided by Hamilton Sundstrand was inadequate
to support a fair and reasonable price justification because commercial market
sales were only identified for a small percentage of items and the quantities were
not similar to the DoD annual demand requirements. As shown in the report, only
63 items or 1.3 percent of the Phase 1 annual contract demand was categorized as


                                     62
“catalog” or commercial marketplace items. We are troubled that the Air Force
assumes that if a contracting officer determines the price of a spare part placed on
a commercial contract as fair and reasonable, then the commercial sales data
submitted by the offeror was adequate. We believe the Air Force lacks an
effective method to price commercial items. When procuring noncompetitive
commercial items, the offeror is the logical source for information to support
price reasonableness. The Air Force needs to make a determination as to whether
the contractor has adequate commercial market sales information to support price
reasonableness determinations and the exception to cost or pricing data in its
comments to the final report.

      f. Require “information other than cost or pricing data” from the
contractor which includes cost information when the contracting officer
makes a determination that commercial sales information is not adequate to
support price reasonableness.

Management Comments. The Military Deputy, Office of the Assistant
Secretary of the Air Force (Acquisition) partially concurred with the
recommendation. The Military Deputy commented that if the contracting officer
cannot obtain adequate information from sources other than the contractor, the
contracting officer must require contractor submission of information other than
cost or pricing data. Information other than cost or pricing data is any type of
information that is necessary to determine price reasonableness. Sales history
information, including previous sales to the Government, is one form of
information other than cost or pricing data. The Military Deputy also commented
that if sales history is not sufficient to perform an adequate price analysis, the
contracting officer is required to request additional information other than cost or
pricing data. The additional information other than cost or pricing data may
include cost information if deemed necessary by the contracting officer to
determine price reasonableness. This hierarchy was used in pricing the Hamilton
Sundstrand contract.

Audit Response. We consider the Air Force comments nonresponsive. The Air
Force inappropriately used price analysis of previous Government sales to
determine price reasonableness for the majority of parts on contract. Price
analysis of commercial market sales should be used to determine fair and
reasonable prices for commercial items. When the commercial market sales
information is not adequate, the Air Force must require information other than
cost or pricing data to include cost information to establish price reasonableness.
The Air Force has requested cost information for 24 Phase 1 items and Hamilton
Sundstrand has refused to provide the information. Phases 2 and 3 of the contract
should not proceed until this issue is resolved. Also, see the audit response to
Recommendation B.2.a.

       g. Perform price analysis of commercial sales, when sales of the same
or similar item previously sold in the commercial market are adequate for
evaluating, through price analysis, the reasonableness of price and ensure the
integrity of commercial sales information.

Management Comments. In the technical corrections, the Deputy Assistant
Secretary (Contracting) concurred with the recommendation and stated that when


                                     63
adequate and relevant sales data is available, the contracting officer will utilize
this information during Phases 2 and 3 to ensure integrity of commercial sales
information and perform price analysis in support of price reasonableness
determinations.

Audit Response. We consider the Air Force comments responsive.

       h. Perform cost analysis of uncertified cost or pricing data if
commercial sales are not adequate to determine price reasonableness. Price
analysis of the previous Government price is acceptable if recent cost
analysis or competition was used to support the price and there have been no
known changes in the manufacturing process that could significantly impact
the contractor’s costs.

Management Comments. The Military Deputy, Office of the Assistant
Secretary of the Air Force (Acquisition) concurred with the recommendation.
The Military Deputy commented that if the contracting officer cannot obtain
adequate information from sources other than the contractor, the contracting
officer must require contractor submission of information other than cost or
pricing data. This information must include existing information on the prices at
which the same or similar items have been previously been sold. If adequate sales
data does not exist, the contracting officer must request additional information
other than cost or pricing data, which may include cost data. When cost data is
received, a cost analysis is performed by the contracting officer. The requirement
is to ensure appropriate cost or pricing techniques are executed to make sure the
price is fair and reasonable, which was done on this contract. The Military
Deputy also commented that in the Hamilton Sundstrand contract, when the
contracting officer determined that adequate information from sources other than
the contractor was not available, Hamilton Sundstrand provided past sales
information where it existed. Further, in those cases where adequate sales data
did not exist, Hamilton Sundstrand provided additional information other than
cost or pricing data to support its proposal. When this additional information
included cost data, a cost analysis was performed.

Audit Response. We consider the Air Force comments nonresponsive. When
commercial market sales data is inadequate, the Air Force needs to obtain
uncertified cost data to establish price reasonableness. While we recognize the
difficulty of obtaining cost information from Hamilton Sundstrand, the agreed-
upon pricing methodology used in Phase 1 of the contract failed to require this
information. The Air Force needs to require that Hamilton Sundstrand provide
cost information when commercial sales are inadequate in future phases of the
contract. As previously stated Phases 2 and 3 of the contract should not proceed
until Hamilton Sundstrand provides cost data for the 24 Phase 1 items as
requested by the Air Force and the data is reviewed by appropriate DoD audit
agencies. The Air Force needs to provide additional comments to the final report.

      i. Address economic order quantities on any vendor quotes for
purchased parts.

Management Comments. The Military Deputy, Office of the Assistant
Secretary of the Air Force (Acquisition) concurred with the recommendation.


                                      64
The Military Deputy commented that economic order quantity information can
have a significant impact on final negotiated prices. The Military Deputy also
commented that the Phase 1 negotiated prices did consider quantity price
sensitivity compared to estimated requirements. As expected, some items were
more quantity sensitive than others. As time has proceeded, some quantity
estimates have been more accurate than others, thus potentially affecting quantity
discounts. The Military Deputy also commented that Hamilton Sundstrand will
be requested to provide this information as appropriate to support the applicable
Phase 2 and 3 negotiated prices.

Audit Response. We consider the Air Force comments nonresponsive. Based on
our review of items, the Air Force failed to address economical order quantities
for numerous items and the proposed quantities were not representative of actual
demand. For example, when a quote is requested for a quantity range of 1-30,
that quote is based on the price to manufacture only 1 item. The Air Force should
obtain quotes that consider economic quantities. The Air Force needs to provide
additional comments to the final report.

       j. Discontinue pricing items with no forecasted or historical demand
until an actual requirement exists.

Management Comments. The Military Deputy, Office of the Assistant
Secretary of the Air Force (Acquisition) partially concurred with the
recommendation. The Military Deputy commented that generally, pricing of
items with no forecasted or historical demand may not yield results that are
reflective of actual pricing for such items at the time of demand, so should be
done only in cases where the Government is reasonably certain the benefit will
outweigh the time and effort involved. For the items in question, this was a
conscious decision made during the acquisition planning phase of this effort. The
Military Deputy also commented that in order to reduce lead times for potential
items that may be needed to support the warfighter, there were items included in
the contract that did not have any historical or forecasted demand. The additional
burden associated with adding these items now was insignificant compared to the
time and effort that would be required to procure these items after the critical
need was identified.

Audit Response. We consider the Air Force comments nonresponsive. The Air
Force should price parts with known requirements on a long-term contract.
Pricing parts on a long-term contract that have never been purchased is high-risk
because no relevant historical data exists to establish prices and will only result in
a best guess or estimate when negotiating prices. A lower-risk approach is to buy
these items on individual contracts and once adequate data exists, then to price the
part on a long-term contract. The Air Force needs to provide additional
comments to the final report.

       k. Request the Defense Contract Management Agency, Windsor
Locks, Connecticut:

              1. Validate negotiated Phase 1 prices for purchased parts to
determine cost realism of vendor quotes that did not address economic order
quantities and adjust contract prices if necessary.


                                     65
              2. Review contractor “estimated cost information” for the
accessory drive gearbox housing for the F-16 turbine engine (national stock
number 2835-01-208-4430) in the next year or two if demand increases as
planned and adjust the contract price if necessary.

             3. Review contractor “estimated cost information” for items
manufactured in Puerto Rico after manufacturing standards have been
audited and adjust contract prices if necessary.

               4. Review cost information requested by the Director of
Contracting, Ogden Air Logistics Center, Hill Air Force Base, Utah, for 24
price-based parts to substantiate the negotiated prices and adjust contract
prices if necessary.

Management Comments. In the technical corrections, the Deputy Assistant
Secretary (Contracting) concurred with the recommendation and stated that the
contracting officer will pursue completion of the various recommended reviews
by Defense Contract Management Agency, Windsor Locks, Connecticut, and will
provide status regarding the reviews by January 31, 2007. If indications surface
that reveal inflated contract prices as the various reviews are completed, the
contracting officer will request that Hamilton Sundstrand mutually agree to a
price reduction. If Hamilton Sundstrand is unwilling to agree to a price reduction,
the contracting officer may take several actions including elevating the issue to
higher Air Force management levels, initiating action to obtain an alternate
source, and consider whether a contract termination for convenience is in the
government’s best interests.

Audit Response. We consider the Air Force comments partially responsive. As
of the date of this report, Hamilton Sundstrand has refused to provide cost
information for the 24 items requested by the Air Force. The Air Force needs to
obtain cost information from Hamilton Sundstrand as part of these “various
reviews” as requested to effectively make a determination on the extent of
inflated contract prices. Phase 2 and 3 of the contract should not proceed until
this issue is resolved. The Air Force needs to provide additional comments to the
final report as to whether the requested cost data was obtained.

       l. Determine whether Hamilton Sundstrand should receive a Red
(unsatisfactory) out-of-cycle Contractor Performance Assessment Reporting
System report rating in “Business Relations,” if the contractor behavior
continues to be unreasonable or uncooperative in meeting any of the data
requests outlined in the previous recommendations.

Management Comments. The Military Deputy, Office of the Assistant
Secretary of the Air Force (Acquisition) concurred with the recommendation.
The Military Deputy commented that if it is determined that Hamilton Sundstrand
is unreasonable or uncooperative with regards to providing data that is required
by regulation and statute and necessary for the contracting officer to determine a
fair and reasonable price, an unsatisfactory (red) rating for the “Business
Relations” category of its CPARS evaluation will be considered.

Audit Response. We consider the Air Force comments responsive.


                                    66
Appendix A. Scope and Methodology
           We visited or contacted individuals within the Air Force, DLA, DCAA, and
           DCMA. We reviewed contract FA8208-05-D-0004 and documentation including
           modifications, the price negotiation memorandum, and the pricing methodology.
           We also reviewed commercial item determinations, information other than cost or
           pricing data, and sales histories. We reviewed Hamilton Sundstrand restructuring
           actions since 1995. We also performed cost analysis of cost data obtained from a
           prior audit report. We reviewed procurement histories, a previous corporate
           contract (SP0700-00-D-9713), and price reasonableness codes for 109 DLA-
           managed items to establish the reliability of the prior prices used as the basis for
           price analysis. We reviewed the DLA/Honeywell build-to-order and catalog
           contract prices and memorandums of agreement. We reviewed Air Force demand
           information from the D200 system. We separated the items we reviewed into
           different pricing categories based on the information provided by the DSCR cost
           analyst. We also reviewed the RAND Corporation 2005 report on price-based
           acquisition.

           Part Selection. A total of 1,011 items (52 Air Force and 959 DLA) were priced
           on Phase 1 of the Hamilton Sundstrand contract with an annual price of about
           $16.8 million.1 We selected 161 high-dollar items (52 Air Force and 109 DLA)
           with an annual demand of about $15.7 million (93.3 percent). The
           DLA/Honeywell build-to-order and catalog contracts had 4,743 items on contract
           with an annual demand of about $94.2 million based on the Standard Automated
           Material Management System acquisition cost and eight-quarter requisition
           history (April 2003–March 2005). We selected 450 high-dollar items that had an
           annual demand of about $61.2 million2 (65.0 percent).

           Hamilton Sundstrand Scope of Review. In our demand calculations, we used
           the average annual requisitions (rounded) obtained from the DLA databases for
           the 410 DLA items with historical demand and the contract demand for the 52 Air
           Force and 549 DLA items without any historical demand (rounded to the nearest
           whole number). To calculate the annual price, we multiplied the ADQ and the
           Air Force contract price that corresponded to the ADQ. The 1,011 Phase 1 items
           had an annual price of $19.6 million, the 462 items with historical demand had an
           annual price of $16.3 million, and the 161 items we reviewed had an annual price
           of $15.0 million. However, 29 of the 161 items selected were removed from the
           price comparisons because no comparable previous contract or demand existed.

1
    The 52 Air Force items had an annual price of about $3.1 million based on contract demand and contract
    prices. The 959 DLA items had an annual price of more than $13.7 million calculated from the
    acquisition unit cost and annualized eight-quarter requisition history provided by the Standard Automated
    Material Management System (April 2003–March 2005) and Business System Modernization
    (July 2003–June 2005) databases. The difference between the calculated annual price and the annual
    price of $19.6 million used throughout the remainder of the report is that demand quantities did not exist
    for 549 items and the acquisition unit cost was used in calculations instead of the contract price.
2
    The difference between this calculated annual price and the annual price of $53.3 million used in
    Table 11 of the report is due to the fact that the demand quantities were not rounded up to the next whole
    number and the acquisition unit cost provided by Standard Automated Material Management System
    database was used in the calculations instead of the DLA/Honeywell contract unit price.



                                                       67
           As a result, our review focused on 132 items with an annual price of $12.7 million
           or 77.5 percent of the annual demand dollars for items with historical demand.
           For the 132 items we reviewed, we performed price comparisons of pre-FASA
           contract prices for 129 items and cost analysis for 3 items. Table A-1 below
           shows the dollars for the Air Force contract and OIG audit coverage.

                      Table A-1. Demand for Air Force Contract and OIG Coverage
                                                          Air Force Contract                              OIG Reviewed
                         Scenario                Items      Total Price1    Percent            Items      Total Price1 Percent
            1. Catalog                               0                   0      0.0                0                 0      0.0

            2. Cost-Based
                Purchased                          510      $ 1,943,115             9.9           21      $     696,909          35.9
                Manufactured                       184        6,008,495            30.6           16          3,407,654          56.7
                  Cost-Based Subtotal              694        7,951,610            40.5           372         4,104,563          51.6

            3. Price Analysis
                 Price-Based                       254        11,415,845           58.2           93          8,381,601          73.4
                 Catalog                            63           259,139            1.3            2            181,359          70.0
                   Price Analysis Subtotal         317        11,674,984           59.5           953         8,562,960          73.3

                    Total                        1,011      $19,626,5954          100.0          132      $12,667,523            64.5

                   Total (Demand Items)            462       $16,338,751          100.0          132      $12,667,523            77.5
            1
              Calculated by multiplying the ADQ and the Air Force contract price that corresponded to the ADQ.
            2
              Represents the 36 cost-based items shown in Table 5 and 1 San Diego item shown in Table 13.
            3
              Represents the 93 price-based items, including 2 items categorized as catalog, shown in Table 10 and 2 San Diego items
             shown in Table 13.
            4
              Slight rounding inconsistencies exist due to auditor calculations based on two decimal places.



           Price Comparison. We compared contract prices from before the enactment of
           FASA to prices on the Hamilton Sundstrand and Honeywell contracts.3 We
           selected the most recent contract awarded after May 31, 1985, but before
           October 13, 1994 (the enactment date for FASA), from procurement histories
           printed from Information Handling Service Haystacks Gold database. We
           selected the contract awarded closest to the FASA enactment date for items that
           did not have any contracts that met the above criteria. However, 32 of the 161
           items from the Hamilton Sundstrand and 18 of the 450 items from the Honeywell
           strategic supplier alliance were not included in our analysis because the items had
           no valid comparison contract or were covered by performing cost analysis. As a
           result, our price analysis of the 2 strategies focused on 129 Hamilton Sundstrand
           items and 432 Honeywell items. We inflated the prices used in our analysis to
           2005 dollars by applying the Bureau of Labor Statistics Producer Price Index for
           Aircraft Engines and Engine Parts midpoint factors.



3
    The Honeywell catalog contract has a management fee included in the negotiated contract prices. We
    removed the management fee from these prices before using them in our analysis.



                                                                68
           Follow-Up on DoD Inspector General Report No. 98-064, “Commercial and
           Noncommercial Sole-Source Items Procured on Contract N000383-93-G-
           M111.” In the February 6, 1998, report, we calculated, using cost analysis, that
                                 4
           DLA could save $             during calendar years 1998 through 2003 by paying
           fair and reasonable prices for commercial items. In response to the audit, DLA
           took aggressive action and awarded an indefinite-delivery corporate contract to
           Hamilton Sundstrand for 216 sole-source items, with estimated 6-year savings of
           $83.8 million.

           For 35 commercial items, we calculated that cost-based prices would have been
             4
                 percent less than the market-based prices. The most recent contract prices
           for these items show that DLA is currently paying 67 percent less than the
           original market-based prices (adjusted for inflation). Therefore, DLA was
           successful in negotiating lower prices for these commercial items, which resulted
           in about $3.4 million in recurring annual savings.5

           For 39 noncommercial items, we calculated that cost-based prices would have
           been 4 percent less than the negotiated prices. The most recent contract prices
           for these items show that DLA was also successful in negotiating lower prices for
           these items, and is currently paying 12.7 percent less than the original negotiated
           prices (adjusted for inflation) and obtaining annual recurring savings of $326,643.

           Table A-2 shows that the annual recurring savings for these 74 items is more than
           $3.7 million.

               Table A-2. Annual Recurring Savings for Commercial and Noncommercial Items
                                   DoD Inspector General Report 98-064                  Audit Followup
                                   Prior                       Percent      Current         Percent       Annual
                                   Prices    Cost-Based*     Difference*    Prices        Difference      Savings

           Commercial            $5,020,638                                $1,628,089        67.6        $3,392,549

           Noncommercial          2,579,010                                 2,252,367        12.7          326,643

           Total                 $7,599,648                                $3,880,456        48.9        $3,719,192
           *
            Contractor proprietary data omitted.


           We performed this audit from June 2005 through May 2006 in accordance with
           generally accepted government auditing standards.

           Reliability of Computer-Processed Data. To perform the work, we relied on
           computer-processed data from DLA, Hamilton Sundstrand, and commercial
           sources. We obtained Standard Automated Material Management System and
           Business System Modernization data from DSCR or the Defense Operations
           Resource and Research Analysis Office to include demand, pricing, and inventory
           information (as of November 2005) for DLA items. However, we did not receive

4
    Contractor proprietary data omitted.
5
    Calculations of annual savings were based on annualized eight-quarter requisitions (January 2004 –
    December 2005) from the Standard Automated Material Management System and Business System
    Modernization databases.



                                                          69
any data for eight items. In addition, 541 items did not have historical
demand/requisition history within the last eight quarters (2003–2005). We
reviewed information other than cost or pricing data from the Hamilton
Sundstrand accounting system. We discussed the cost information and system
reliability with DCAA and DCMA officials at the Hamilton Sundstrand, Windsor
Locks, Connecticut, office. We also reviewed recent DCAA reports, which found
that the cost accounting system used by Hamilton Sundstrand was working
appropriately. We printed procurement histories from Information Handling
Service Haystacks Gold database. However, due to Freedom of Information Act
exceptions, the Air Force does not provide contract unit prices to Haystacks; we
obtained this information from the Air Force contracting officer. The computer-
processed data obtained from DLA and Haystacks were determined reliable,
based on a comparison of unit prices and dates to source documents such as
contract documentation and delivery orders. In addition, we have used
procurement histories from Information Handling Service Haystacks Gold for the
past several audits and have not found any material errors or discrepancies. We
did not find errors that would preclude the use of the computer-processed data to
meet the audit objectives or that would change the conclusions reached in the
report.

GAO High-Risk Areas. GAO has identified several high-risk areas in DoD.
This report provides coverage of the Defense Contract Management and Defense
Supply Chain Management high-risk areas.




                                   70
Appendix B. Prior Coverage
   During the last 9 years, the GAO and the DoD Inspector General (IG) have issued
   27 reports discussing commercial and noncommercial prices of weapon systems
   and spare parts. Unrestricted GAO reports can be accessed over the Internet at
   http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
   http://www.dodig.mil/audit/reports. Dates in parenthesis indicate redacted
   versions.


GAO
   GAO Report No. GAO-05-169, “Contract Management: The Air Force Should
   Improve How It Purchases AWACS Spare Parts,” February 15, 2005

   GAO Report No. GAO-02-565, “Defense Acquisitions: Navy Needs Plan to
   Address Rising Prices in Aviation Parts,” May 31, 2002

   GAO Report No. GAO-02-452, “Defense Inventory: Trends in Services’ Spare
   Parts Purchased from the Defense Logistics Agency,” April 30, 2002

   GAO Report No. GAO-02-505, “Defense Acquisitions: Status of Defense
   Logistics Agency’s Efforts to Address Spare Part Price Increases,” April 8, 2002

   GAO Report No. GAO-01-244, “Performance and Accountability Series: Major
   Management Challenges and Program Risks, Department of Defense,” January 1,
   2001

   GAO Report No. GAO-01-23, “Defense Acquisitions: Prices of Navy Aviation
   Spare Parts Have Increased,” November 6, 2000

   GAO Report No. GAO-01-22 (OSD Case No. 2080), “Defense Acquisitions:
   Price Trends for Defense Logistics Agency’s Weapon Systems Parts,”
   November 3, 2000

   GAO Report No. NSIAD-00-123, “Defense Acquisitions: Prices of Marine Corps
   Spare Parts Have Increased,” July 31, 2000

   GAO Report No. NSIAD-00-30 (OSD Case No. 1920), “Defense Inventory:
   Opportunities Exist to Expand the Use of Defense Logistics Agency Best
   Practices,” January 26, 2000

   GAO Report No. NSIAD-00-22 (OSD Case No. 1903), “Contract Management:
   A Comparison of DoD and Commercial Airline Purchasing Practices,”
   November 29, 1999

   GAO Report No. NSIAD-99-90 (OSD Case No. 1808), “Contract Management:
   DoD Pricing of Commercial Items Needs Continued Emphasis,” June 24, 1999



                                      71
DoD IG
    DoD IG Report No. D-2006-055, “Spare Parts Procurements From TransDigm,
    Inc.,” February 23, 2006

    DoD IG Report No. D-2004-064, “Acquisition of the Boeing KC-767A Tanker
    Aircraft,” March 29, 2004

    DoD IG Report No. D-2004-012, “Sole-Source Spare Parts Procured From an
    Exclusive Distributor,” October 16, 2003

    DoD IG Report No. D-2002-112, “Industrial Prime Vendor Program at the Air
    Force Air Logistics Centers,” June 20, 2002

    DoD IG Report No. D-2002-059, “Results of the Defense Logistics Agency
    Strategic Supplier Alliance with Honeywell International, Incorporated,”
    March 13, 2002

    DoD IG Report No. D-2001-171, “Industrial Prime Vendor Program at the Naval
    Aviation Depot – Cherry Point,” August 6, 2001

    DoD IG Report No. D-2001-072, “Industrial Prime Vendor Program at the Naval
    Aviation Depot – North Island,” March 5, 2001

    DoD IG Report No. D-2001-001, “Contract Award for the Fluid Flow Restrictor
    Spare Part,” October 3, 2000

    DoD IG Report No. D-2000-192, “Results of the Defense Logistics Agency
    Strategic Supplier Alliance for Catalog Items,” September 26, 2000

    DoD IG Report No. D-2000-099, “Procurement of the Propeller Blade Heaters for
    the C-130 and P-3 Aircraft,” March 8, 2000 (June 12, 2000)

    DoD IG Report No. D-2000-098, “Spare Parts and Logistics Support Procured on
    a Virtual Prime Vendor Contract” March 8, 2000 (June 14, 2000)

    DoD IG Report No. 99-218, “Sole-Source Noncommercial Spare Parts Orders on
    a Basic Ordering Agreement,” July 27, 1999 (October 12, 1999)

    DoD IG Report No. 99-217, “Sole-Source Commercial Spare Parts Procured on a
    Requirements Type Contract,” July 21, 1999 (August 16, 1999)

    DoD IG Report No. 99-026, “Commercial Spare Parts Purchased on a Corporate
    Contract,” October 30, 1998 (January 13, 1999)

    DoD IG Report No. 98-088, “Sole-Source Prices for Commercial Catalog and
    Noncommercial Spare Parts,” March 11, 1998 (October 13, 1998)

    DoD IG Report No. 98-064, “Commercial and Noncommercial Sole-Source Items
    Procured on Contract N000383-93-G-M111,” February 6, 1998 (June 24, 1998)


                                      72
Appendix C. Pricing Issues for Generators and
Generator Components
   Generator Prices. A significant number of items included on Phase 1 of the
   strategic sourcing contract were generators and component parts used on
   generators of various military aircraft. We specifically reviewed generators used
   on the F-16, E-3, and B-1B aircraft that had a combined annual price of more than
   $1.2 million. Even though these generators for the various aircraft appear similar,
   perform similar functions, and use similar components, the prices are significantly
   different; as a result, contracting officers are not able to rely only on the prices of
   similar items to negotiate fair and reasonable prices for these items. For example,
   the prices for these four generators vary in price by 68 percent, from $22,928.41
   to $38,535.79, despite the prices being based on Hamilton Sundstrand cost data.
   The figures below show the generators we reviewed.




   Figure C-1. F-16 Generator                 Figure C-2. F-16 Generator
   NSN 6115-01-236-8434                       NSN 6115-01-246-5622
   Unit Price $23,007.12 – ADQ 21             Unit Price $22,928.41 – ADQ 4
   Annual Price $483,150                      Annual Price $91,714




   Figure C-3. E-3 Generator                  Figure C-4. B-1B Generator
   NSN 6115-01-104-8632                       NSN 6115-01-149-7588
   Unit Price $30,857.14 – ADQ 7              Unit Price $38,535.79 – ADQ 11
   Annual Price $216,000                      Annual Price $423,894




                                         73
Generator Overview. The main components of a generator generally include the
housing, stator, armature rotor, and terminal board. Figure C-1 (enlarged) below
is a picture of the F-16 generator and these components.




Figure C-1 (enlarged). F-16 Generator

The figures below show detailed pictures of the insulator washer and stator
generator illustrated in Figure C-1 (enlarged), the pricing methodology, and the
annual price.




Figure C-1.a. Insulator Washer           Figure C-1.b. Stator Generator
NSN 5970-01-057-9668                     NSN 6115-01-058-1595
Vendor quote                             Price-based
Unit Price $0.86 – ADQ 597               Unit Price $1,411.43 – ADQ 272
Annual Price $513                        Annual Price $383,908




                                    74
The three main components of the armature rotor are the shaft, exciter armature,
and stack rotor. Figure C-1.c below is a detailed picture of the armature rotor for
the F-16 generator and component parts we reviewed.




Figure C-1.c. Armature Rotor for the F-16 Generator
NSN 6115-01-058-1521
Unit Price $8,170.17 – ADQ 5
Annual Price $40,901



                                     75
The components on the armature rotor that we reviewed include an insulator
washer, copper rotor band, wedge holding, and wedge. The figures below show
these components, the pricing methodology, and annual price.




Figure C-1.c.1. Insulator Washer          Figure C-1.c.2. Copper Rotor Band
NSN 5970-01-203-7573                      NSN 6115-01-144-9923
Vendor quote                              Price-based
Unit Price $0.24 – ADQ 19,004             Unit Price $26.41 – ADQ 1,143
Annual Price $4,561                       Annual Price $30,191




Figure C-1.c.3. Wedge Holding             Figure C-1.c.4. Wedge
NSN 6115-01-145-3815                      NSN 6150-01-503-6572
Cost-based manufactured                   Vendor quote
Unit Price $42.86 – ADQ 3,030             Unit Price $52.81 – ADQ 868
Annual Price $129,866                     Annual Price $45,836

Component Prices. We found significant price variations similar to what we
found with the generators when we compared generator component parts, such as
terminal boards and wedges, for the different military aircraft. Again, the
contracting officers did not have a substantial basis to determine the cost of the
item.

        Terminal Boards. We compared six terminal boards with historical or
forecasted demand priced on Phase 1 of the strategic sourcing contract that had a
combined annual price of $148,645. Price analysis was used to price five of the
six terminal boards and a vendor quote was used to price the remaining one. As
discussed previously in finding B of the report, price analysis is not effective and
the vendor quotes Hamilton Sundstrand provided did not always contain
economical quantity ranges. Because the methods used to negotiate prices for the
terminal boards failed to provide insight of actual costs, the contracting officials
do not have any idea what these terminal boards should cost or a valid basis to
determine fair and reasonable prices. Table C-1 below summarizes the six


                                     76
terminal boards with historical or forecasted demand that had negotiated prices on
Phase 1 of the contract, what pricing scenario was used to price each terminal
board, the historical annual demand quantity, and contract unit price.

                        Table C-1. Comparison of Terminal Boards
                                 Phase 1 Contract Prices
         NSN                         Scenario                  ADQ          Unit Cost            Annual price
  5940-00-606-5616              Catalog*                        44           $ 72.34                  $ 3,183
  5940-00-615-8714              Vendor Quote                    20             389.73                      7,795
  5940-00-856-0853              Catalog*                        75             794.59                    59,594
  5940-01-006-0367              Price-Based                    188               90.49                   17,012
  5940-01-057-3090              Price-Based                    201             223.65                    44,954
  5940-01-058-3338              Price-Based                    142             113.43                    16,107
   Total                                                                                              $148,645
  *
   Price analysis of the previous Government prices was performed to negotiate the prices for these items.


To illustrate the similarity of the form, fit, and function of these different terminal
boards with significant price differences, we compared the terminal boards used
on the E-3 and F-16 generators, and another terminal board used on an unknown
military aircraft generator. The E-3 aircraft generator terminal board (NSN 5940-
01-057-3090) has a negotiated contract unit price of $223.65 and is constructed
with a flat base with four prongs in a row protruding from the base. Figure C-5
below is a picture of the E-3 terminal board.




Figure C-5. E-3 Terminal Board
NSN 5940-01-057-3090
Price-based
Unit Price $223.65 – ADQ 201
Annual Price $44,954

The F-16 terminal board (NSN 5940-01-058-3338) had a negotiated contract unit
price of $113.43. Similar to the E-3 terminal board, the F-16 terminal board has a
flat base and four prongs extending in a line from the base. However, the F-16
terminal board also has a tab that extends at an angle from the base on each end to
attach the terminal board to the generator housing. The F-16 terminal board was
shown previously in Figure C-1 (enlarged).


                                                    77
A third terminal board (NSN 5940-00-856-0853) from an unknown aircraft
generator had a negotiated contract unit price of $794.59. This terminal board
was different from the E-3 and F-16 terminal boards in that it has a curved base
with six prongs, rather than a flat base with four prongs. Also, the prongs are not
arranged in a straight line like the prongs for the E-3 and F-16 terminal boards.
Figure C-6 below is a picture of this terminal board.




Figure C-6. Terminal Board
NSN 5940-00-856-0853
Catalog
Unit Price $794.59 – ADQ 75
Annual Price $59,594

        Wedges. We noticed similar pricing differences in 13 wedges with
historical or forecasted demand that had negotiated prices on Phase 1 of the
strategic sourcing contract with a combined annual price of $380,724. Of the 13
wedges, 12 were priced using a vendor quote and one was priced using price
analysis. As previously discussed, the vendor quotes Hamilton Sundstrand
provided did not always contain economical quantity ranges, which resulted in
higher negotiated prices.

For example, the wedge used on the A-10 generator (NSN 6150-01-503-6571)
has an annual demand of 667 units, but the vendor only quoted a quantity range of
86–127 units. The F-16 generator wedge (NSN 6150-01-503-6572) has an annual
demand of 868, but Hamilton Sundstrand provided a quote referencing a long-
term agreement where all purchases are made at the same price, regardless of
quantity. However, if the long-term agreement unit price is based on a low
expected quantity, the price could be higher than necessary. For the other items,
we did not review the quotes; as a result, we do not know whether the quoted
quantities are economical or what prices were quoted.




                                    78
Table C-2 below shows the 13 wedges with historical or forecasted demand that
had negotiated prices on Phase 1 of the contract, what pricing scenario was used
to price each wedge, the historical annual demand quantity, and contract unit
price.

        Table C-2. Comparison of Wedges Phase 1 Contract Prices
            NSN            Scenario      ADQ      Unit Cost   Annual price
     6150-01-399-8610   Vendor Quote      1,445    $ 29.71       $ 42,931
     6150-01-503-6569   Vendor Quote        272       62.16          16,908
     6150-01-503-6570   Vendor Quote        451       60.04          27,078
     6150-01-503-6571   Vendor Quote        667       62.60          41,754
     6150-01-503-6572   Vendor Quote        868       52.81          45,836
     6150-01-503-6587   Vendor Quote      8,116        1.18           9,575
     6150-01-503-6589   Vendor Quote      4,116        3.31          13,642
     6150-01-503-6636   Price-Based         412     121.98           50,254
     6150-01-503-6749   Vendor Quote        808       55.18          44,585
     6150-01-503-7074   Vendor Quote        141        9.69           1,366
     6150-01-503-8378   Vendor Quote        221       15.52           3,430
     6150-01-505-8852   Vendor Quote     16,331        3.31          54,056
     6150-01-505-8854   Vendor Quote      5,827        5.03          29,310
      Total                                                       $380,724

We reviewed three of these wedges used on different aircraft generators. The
F-16 generator wedge (NSN 6150-01-503-6572) had a negotiated contract unit
price of $52.81. A similar wedge used on the A-10 generator (NSN 6150-01-503-
6571) had a negotiated contract unit price of $62.60. The B-1B generator wedge
(NSN 6150-01-503-6636) had a negotiated contract unit price of $121.98. All
three wedges are constructed of similar materials and all are used on the outside
of the stack rotor for their respective generator to contain the wire wrapping
within the stack rotor. The F-16 and A-10 generator wedges are similar in length,
but the B-1B wedge is noticeably longer than the other two wedges. Both the
F-16 and A-10 wedges were priced using questionable vendor quotes and have
similar prices to each other at $52.81 and 62.60, but the B-1B wedge was priced
using price analysis and is nearly double the price at $121.98. See Figures C-1.c
and C-1.c.4 for a picture of the F-16 generator wedge. The figures below show
pictures of the A-10 and B-1B wedges.




Figure C-7. A-10 Generator Wedge Figure C-8. B-1B Generator Wedge
NSN 6150-01-503-6571             NSN 6150-01-503-6636
Unit Price $62.60 – ADQ 667      Unit Price $121.98 – ADQ 412
Annual Price $41,754             Annual Price $50,254



                                    79
Based on our review, cost analysis has proven to be the most effective method to
establish fair and reasonable prices for military aircraft items.




                                   80
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Air Force Materiel Command
  Commander, Ogden Air Logistics Center
  Commander, Oklahoma City Air Logistics Center
  Commander, Warner Robins Air Logistics Center

Other Defense Organizations
Director, Defense Logistics Agency
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency




                                          81
Non-Defense Federal Organization
Office of Management and Budget


Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                        82
Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                       83
84
85
86
87
88
Assistant Secretary of the Air Force
(Acquisition) Comments




                       89
90
91
92
93
94
95
Assistant Secretary of the Air Force
(Acquisition) Technical Corrections




                       96
97
98
99
100
101
102
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Henry F. Kleinknecht
Joseph P. Bucsko
Bradford C. Green
Marc D. Santana
Deanne B. Curry
Meredith H. Johnson
